    Semiannual eport
     to the C ngress
       Office of Inspector General




r




     October 1, 1990 . . March 31, 1991
                                           FOREWORD
II                                                                                                             II
     This document summarizes the Office of Inspector General's (OIG) activity during the 6-month
     period ending March 31, 1991. It is my eleventh Report to the Congress.
     The report reflects an effective and broad-ranging Inspector General presence in the General Services
     Administration. The benefits of this presence can be seen, in part, by the level of savings accruing to
     the Government. This period, such savings-in terms of management decisions on financial recom-
     mendations, voluntary recoveries, court-ordered recoveries, and investigative recoveries-totaled
     $125,428,917.
     Beyond these quantifiable benefits, I believe that OIG activities have had a major impact on improving
     control systems; preventing fraud, waste, and abuse; and heightening awareness of the need for
     economy and efficiency in Agency operations.
     I am most appreciative of the dedication exhibited by the OIG staff. This dedication, coupled with the
     solid support of the Congress, the Office of Management and Budget, and the GSA Administrator and
     his management team, helps the OIG to remain a significant, productive presence in the Agency.




     WILLIAM R. BAR TON
     Inspector General


     April 30, 1991
                SUMMARY OF OIG PERFORMANCE


OIG ACCOMPLISHMENTS

Recommendations That Funds Be Put to Better Use ......................... .                                    $92,238,053


Questioned Costs ...........................................................................................    $2,648,405


Audit Reports Issued ......................................................................................        355


Investigative Referrals ................................................................................. .        205


RESULTS ATTAINED

Savings Achieved (Management Agreements and Recoveries) ........ .                                             $125,428,917


Indictments and Informations ................................................................... .                  14


Successful Criminal Prosecutions .......................................................... ..                      18


Civil Settlements/Judgments .................................................................. ..                   12


Contractors Suspended/Debarred ........................................................... ..                      86


Employees Disciplined ............................................................................... ..           20
             OVERVIEW AND FOCUS ON OIG ACTIVITIES
II                                                                                                               II
This report, submitted pursuant to the Inspector          Prevention Activities
General Act of 1978, as amended, chronicles the ac-
tivities of the General Services Administration's Of-     OIG prevention activities included:
fice of Inspector General (OIG). It is the twenty-fifth     •   Preaward reviews of 213 contracts with an
Report to the Congress since the appointment of                 estimated value of $1.2 billion.
GSA's first Inspector General.
                                                            •   Integrity awareness briefings of 588 GSA
                                                                employees.
Overview                                                    •   Advisory reviews of 30 lease proposals.
This period, our work had a significant impact on
Agency procurements, internal operations, and pre-
vention activities.                                       Focus
                                                          This section outlines some of the areas where we see
Procurement Activities                                    potential vulnerabilities and where we will focus fu-
Significant OIG audits and investigations resulted in:    ture attention. It also highlights several initiatives we
                                                          are taking to enhance our effectiveness within the
     •   $11.2 million to be paid the Government in       Agency.
         civil fraud settlements.
     •   The conviction of a tool company owner for       Vulnerability in the Procurement Area
         falsifying laboratory test results.
                                                          Our activities indicate that Multiple Award Schedule
     •   Management being advised of the need to          procurements remain vulnerable as evidenced by the
         improve the usefulness of Government             number of identified instances where contractors did
         estimates.                                       not provide current, accurate, and complete price and
     •   Successful prosecution of a janitorial firm      discount information as required for negotiated pro-
         owner for submitting fictitious bonding and      curements. In Fiscal Year 1990, we recommended
         bid information.                                 over $146 million in adjustments to Multiple Award
                                                          Schedule contracts, primarily because contractors did
     •   Improvements to the Agency's methods for         not fully disclose required information. Inaccurate
         evaluating contractor versus Government          and incomplete information was certified by contrac-
         performance.                                     tors and submitted to the Government in approxi-
                                                          mately 70 percent of the instances reviewed. The
Agency Operations                                         high rate of noncompliance indicates that this pro-
                                                          gram is an area of significant vulnerability.
In a series of internal reviews, the OIG advised man-
agement of the need to:                                   Government contracting officials can confidently ne-
                                                          gotiate fair pri<,:es only when provided accurate and
     •   Ensure that automated information systems        complete information. For the preponderance of their
         development complies with procedures.            negotiations, GSA contracting officials must rcly
     •   Develop and test contingency plans for es-       upon certified, but unaudited, submissions. We be-
         sential computer systems.                        lieve it essential that as the Agency considers revi-
                                                          sions to its Multiple Award Schedule Program,
     •   Conduct required safety and environmental        concern for enforcing contractor disclosure obliga-
         surveys prior to awarding leases.                tions and strengthening the Government's ability to
     •   Ensure that state agencies for surplus prop-     take corrective actions in the event of inadequate dis-
         erty operate in compliance with applicable       closures, be given the very highest priority. We are
         regulations.                                     vigorously pursuing cases where the failure to submit
required information amounts to fraud or is action-        problem for contracting officials trying to determine
able under the False Claims Act.                           fair prices because dealers only disclose prices paid to
                                                           manufacturers. Contracting officials need manufac-
                                                           turers' cost or discount data in order to negotiate fair
Procurement Personnel Development                          prices, obtain price reduction benefits, and pursue de-
and Performance Measurement                                fective pricing claims. We intend to work closely
                                                           with GSA management to resolve this area of concern
An emerging area of focus for the OIG is procurement       so that the taxpayers' interests can be protected.
personnel development and performance measure-
ment. Personnel turnover in GSA's critical procure-
ment programs adversely affects the Agency's ability       OIG Operating Effectiveness
to award contracts for needed goods and services at        The OIG recognizes that our employees are our most
the most favorable prices. Likewise, reliable perfor-      important asset and that each employee must be pro-
mance measurement systems are needed to allocate           fessionally developed. Further, we recognize that to
procurement resources among competing Agency               achieve the highest level of program effectiveness, we
programs. These facts, coupled with the realization        must direct the office's expertise into those areas
that the availability of talented individuals may          most vulnerable to fraud, waste, and mismanage-
shrink, necessitates that GSA ensure the availability      ment. With these responsibilities in mind, the OIG
of an effective pool of procurement profcssionals for      launched several initiatives to improve our recruit-
the future. To determine how effectively GSA is ad-        ing, enhance individual proficiency and technical ex-
dressing this issue, the OIG is conducting audits in       pertise, identify systemic problem areas where
several of GSA's primary service areas.                    resources can be most productively directed, and har-
                                                           ness the collective power of involved employees.
Chief Financial Officer Legislation                        During this period, we expanded our efforts to en-
We are continuing to be involved as the Agency im-         hance the professionalism of our workforce through
plements the Chief Financial Officer legislation with-     recruitment and training. We are emphasizing the
in GSA. Because of the lasting impact this legislation     Outstanding Scholar and Superior Academic hiring
will have upon financial information and systems, we       authorities to fill professional entry level positions.
actively participated while the Agency formulated an       Similarly, we embarked on a program to acquire the
organizational framework and implementation plan.          skills and expertise needed to perform in today's
In addition, we are advising the Agency as it strives to   changing environment, including efforts to expand
better link financial, budget, and performance infor-      upon the use and application of computers in the
mation, and we are planning audits that examine the        workplace.
accuracy and reliability of existing financial informa-    To ensure that our resources are directed toward the
tion systems and controls. The availability of rele-       resolution of systemic conditions most likely to re-
vant, accurate, and timely financial information,          sult in material loss, the OIG is seeking better meth-
integrated with budget and performance information,        ods to interface with the Agency so that a clearer
is a key step in providing GSA the tools to manage         long-term picture emerges of critical program weak-
programs more effectively.                                 nesses. To this end, we are redirecting the audit plan-
                                                           ning process toward broadly focused nationwide
                                                           reviews of Agency programs and increasing the level
Multiple Award Schedule/Sole                               of OIG resources devoted to the identification of sys-
Source Dealers                                             temic weaknesses. We are also working on ways to
                                                           streamline the defective pricing audit and investiga-
GSA's Multiple Award Schedule Program is designed
                                                           tive processes so we can achieve more timely and
to yield significant savings, through the procurement
                                                           efficient prosecutions and recoveries.
of common-use items at reduced prices, based upon
the Government's unique position in the mar-               Finally, the OIG is embarking upon a long term quali-
ketplace. Recently, GSA has received an increasing         ty effort. The effort will engage all OIG staff in a
number of contract proposals from independent deal-        structured process aimed at continuously improving
ers, acting as manufacturers' sole source representa-      OIG activities. By creating a total quality environ-
tives, to sell exclusively to the Government. This is      ment within the OIG, all employees will be involved
occurring particularly in the automated data process-      in implementing the recently developed OIG Strate-
ing equipment area. This situation presents a major        gic Plan.


ii
                                                          investigations are an important means to prevent
Conclusion                                                abuse and detect inefficiency in Agency activities. We
Now more than ever, clearer identification of system-     recognize, however, that primary responsibility for
ic vulnerabilities is needed to safeguard Government      maintaining an effective system of internal controls
assets and bring together the efforts of our office and   rests with management. Nevertheless, the OIG is al-
those of management in eliminating opportunities for      ways alert for ways to work with the Agency in seek-
abuse and promoting effectiveness in Agency oper-         ing to resolve long term systemic issues because the
ations. The OIG believes independent audits and           "bottom line" will be a better managed Government.




                                                                                                         iii
                                               TABLE OF CONTENTS
II                                                                                                                                      II
                                                                                                                                 Page

     OVERVIEW AND FOCUS ON OIG ACTIVITIES ....................................................... ...


     REPORTING REQUIREMENTS ....................................................................................... ..            vi


     ORGANIZATION, STAFFING, AND BUDGET .......................................................... ..                              1


     PROCUREMENT ACTIVITIES ........................................................................................ ..            2


     AGENCY OPERATIONS ..................................................................................................... .     5


     PREVENTION ACTIVITIES ............................................................................................... .       9


     REVIEW OF LEGISLATION AND REGULATIONS .....................................................                                  11


     STATISTICAL SUMMARY OF OIG ACCOMPLISHMENTS .................................. ..                                             12


     APPENDICES


     APPENDIX I-SIGNIFICANT AUDITS FROM PRIOR REPORTS .......................... .                                                18


     APPENDIX II-AUDIT REPORT REGISTER ................................................................ .                         20


     APPENDIX HI-DELINQUENT DEBTS ........................................................................ ..                     41




                                                                                                                                        v
                                      REPORTING REQUIREMENTS
II                                                                                                                                                                             II
The table below cross-references the reporting require-                                        in Senate Report No. 96-829 relative to the 1980 Sup-
ments prescribed by the Inspector General Act of 1978,                                         plemental Appropriations and Rescission Bill is also
as amended, to the specific pages where they are ad-                                           cross-referenced to the appropriate page of the report.
dressed. The information requested by the Congress



                                                                              Source                                                                                    Page

     Inspector General Act

       Section 4(al(2)-Review of Legislation and Regulations .................................................................... .                                      11
       Section S(a) (1)-Significant Problems, Abuses, and Deficiencies .................................................. ..                                            2,5
       Section S(a)(2)-Recommendations With Respect to Significant Problems, Abuses,
         and Deficiencies ......................................................................................................................................... .   2,5
       Section S(al(3)-Prior Recommendations Not Yet Implemented .................................................... .                                                  18
       Section S(al(4)-Matters Referred to Prosecutive Authorities .......................................................... .                                          14
       Sections S(al(S) and 6(b)(2)-Summary of Instances Where Information Was Refused ............. .                                                                  None
       Section S(a)(6)-List of Audit Reports ...................................................................................................... .                    20
       Section S(a)(7)-Summary of Each Particularly Significant Report ............................................... ..                                               2,5
       Section S(al(8)-Statistical Tables on Management Decisions on Questioned Costs ............... .                                                                  14
       Section S(a)(9)-Statistical Tables on Management Decisions on Recommendations
         That Funds Be Put to Better Use ........................................................................................................... .                   13
       Section S(a)(lO)-Summary of Each Audit Report Over 6 Months Old for Which No
         Management Decision Has Been Made ............................................................................................... .                            None
       Section S(a)(ll)-Description and Explanation for Any Significant Revised
         Management Decision .............................................................................................................................. .           None
       Section S(al( 12)-Information on Any Significant Management Decisions With
         Which the Inspector General Disagrees .............................................................................................. .                         None

     Senate Report No. 96-829

       Resolution of Audits .......................................................................................................................................      12
       Delinquent Debts ............................................................................................................................................     41




vi
              ORGANIZATION, STAFFING, AND BUDGET
II                                                                                                               II
Pursuant to the Inspector General Act of 1978, an                comments on proposed legislation, and
Office of Inspector General (OIG) was established                work with the Department of Justice on liti-
within the General Services Administration on Octo-              gation arising out of OIG activities.
ber 1, 1978. As currently configured, the OIG consists
                                                             •   The Office of Administration, a centralized
of four offices that function cooperatively to perform
                                                                 unit that provides data systems support, and
the missions legislated by the Congress.
                                                                 handles budgetary, administrative, and per-
                                                                 sonnel matters as well as formulates OIG
                                                                 comments on proposed regulations and GSA
Organization                                                     policy issuances.

The OIG utilizes a functional organizational struc-
ture to provide nationwide coverage of GSA programs
and activities. It consists of:
                                                           Office Locations
     •   The Office of Audits, a multidisciplinary         The OIG is headquartered in Washington, DC, at
         unit staffed with financial and technical ex-     GSA's Central Office building. Field audit and inves-
         perts who provide comprehensive coverage          tigations offices are maintained in: Boston, New
         of GSA operations (internal or management         York, Philadelphia, Atlanta, Chicago, Kansas City,
         audits) as well as of GSA contractors (exter-     Fort Worth, San Francisco, Auburn, and Washington,
         nal or contract audits). Headquarters directs     DC. In addition, the Office of Investigations has field
         and coordinates the audit program, which is       offices in Cleveland and Los Angeles.
         performed by the fourteen field audit offices.
     •   The Office of Investigations, an investiga-       Staffing and Budget
         tive unit that manages a nationwide pro-
         gram to prevent and detect illegal and/or         The OIG's approved Fiscal Year (FY) 1991 budget
         improper activities involving GSA pro-            is approximately $31 million. Almost $16 million
         grams, operations, and personnel. Head-           was available for obligation during the first half of
         quarters coordinates and oversees the             FY 1991.
         investigative activity of twelve field investi-
                                                           The OIG started FY 1991 with a total on-board
         gations offices.
                                                           strength of 401 full-time employees. At the end of the
     •   The Office of Counsel to the Inspector Gen-       reporting period, the OIG's full-time staff totaled 393.
         eral, an in-house legal staff that provides       This period, the OIG established staffing targets and
         opinions and advice on matters under OIG          initiated recruitment efforts to meet these targets.
         review. These attorneys also manage the           Training efforts continued to place emphasis on com-
         civil referral system, formulate OIG              puter skills and professional development.




                                                                                                                  1
                           PROCUREMENT ACTIVITIES
II                                                                                                               II
The GSA is responsible for providing space for almost      items to its commercial customers at discounts great-
1 million Federal employees. GSA, therefore, ac-           er than those disclosed and offered to GSA during
quires buildings and sites, constructs facilities, and     contract negotiations. Further, during the course of
leases space as well as contracts for repairs, alter-      its GSA contract, the firm reduced its prices to other
ations, maintenance, and protection of Government-         customers without informing GSA of these reduc-
controlled space. GSA also operates a Government-          tions or offering equivalent reductions to Federal pur-
wide service and supply system. To meet the needs of       chasers as required. These violations of the price
customer agencies, GSA contracts for billions of dol-      reduction/ defective pricing clauses in its GSA con-
lars worth of equipment, supplies, materials, and          tracts provided the supplier with inflated prices.
services each year.
                                                           The second agreement, settled on October 9, 1990,
                                                           provided that an electronic typewriter and typewriter
                                                           maintenance supplier would pay the Government al-
Significant Audits and                                     most $800,000. This agreement resulted from OrG
Investigations                                             reviews which found that the contractor submitted
                                                           incomplete and inaccurate pricing data to GSA con-
                                                           tract officials. The contracting officer relied upon
$7,426,300 Civil Settlement                                these data when negotiating a contract and, as a re-
On March 25, 1991, the Government entered into a           sult, prices were inflated. The settlement reflected a
civil settlement agreement with a power tool and ac-       full recovery of the Government's monetary loss plus
cessories supplier. Under the terms of the settlement,     interest.
the firm agreed to pay the Governmcnt $7,000,000
and to forsake collecting $426,300 for merchandise
shipped to Federal customers, but not yet invoiced, to
settle its potential civil fraud liability.
                                                           False Statements Conviction
                                                           In response to a GSA official's allegations, the OIG
A joint OrG audit and investigation was initiated fol-
                                                           investigated whether a machine tool company falsi-
lowing the receipt of allegations from a former em-
                                                           fied test reports. The investigators found that the
ployee of the tool supplier that the firm granted
                                                           owner of the company had falsely certified that feeler
higher discounts to commercial customers than it
                                                           gauges, used to provide precise measurements of crit-
disclosed to GSA. The OrG review confirmed that the
                                                           ical clearances in military equipment, met contract
firm failed to disclose its highest commercial dis-
                                                           requirements for tolerances and hardness. The owner
counts to GSA during contract negotiations. GSA
                                                           had received independent laboratory reports showing
contracting officials relied upon these data when ne-
                                                           that the gauges failed to meet specifications. To con-
gotiating the contracts and, as a result, the firm se-
                                                           ceal this product failure, he altered the report results
cured inflated prices from Federal customers.
                                                           to reflect that thc gauges met contract specifications,
                                                           then certified that the altered report was accurate.
$3 Million in Civil Settlements                            These false certifications resulted in a loss of almost
                                                           $40,000 to the Government.
The Government entered into two civil settlement
agreements, totaling $3 million, with Federal sup-         On January 4, 1991, the owner pled guilty in Federal
pliers. Under the terms of the first agreement, a major    court to charges of submitting falsified statements to
supplier of batteries and related parts, on February 21,   GSA. He was sentenced to 2 months of house custo-
1991, paid the Government $2.2 million to settle its       dy, placed on probation for 2 years, and fined $5,000.
potential civil liability under the False Claims Act.      Additionally, administrative action has been initiated
This agreement stemmed from a joint OIG audit and          to recover reprocurement costs and other Govern-
investigation which disclosed that the firm sold           ment losses as a result of the company's actions.




2
Government Cost Estimates                                The Regional Administrator concurred with the rec-
                                                         ommendations in the draft report. We are evaluating
GSA contracting officers must frequently negotiate       the action plans submitted by management for imple-
the costs for proposed alterations and modifications     menting the recommendations.
to existing leases and contracts. Government cost es-
timates, prepared either in-house or by a contractor,
are an important tool for evaluating the reasonable-
ness of these proposed costs prior to negotiations.
                                                         Supply Center Contract
                                                         GSA awarded a private-sector firm a contract to pro-
An OIG review of one GSA region's controls and pro-
                                                         vide office supplies and other common-use items to
cedures governing the preparation of Government es-
                                                         Government agencies. The contract was awarded to
timates disclosed that these estimates were not
                                                         test whether the private sector can supply these type
useful to contracting officers when determining
                                                         items with greater cost benefits and user satisfaction
whether contractors' proposed prices were fair and
                                                         than the Government operated Customer Supply
reasonable. For example, many of the estimates were
                                                         Centers currently used.
so much higher than the proposed prices that they
were of questionable value in determining price rea-     An OIG evaluation revealed that GSA needed to im-
sonableness. Contracting officers often had to look      prove both its administration of the contract and the
for other means of evaluating the proposed prices.       methods for evaluating contractor versus Govern-
Also, estimates were so poorly documented that the       ment operated performance. For example, the criteria
basis for formulating the estimates and the sources of   for measuring the shipment response time for the
pricing data could not be established. Poor documen-     contractor and the Customer Supply Center were not
tation weakens the credibility of the estimate and       the same. Further, the sample of customers used to
diminishes its value to contracting officers. In addi-   monitor contractor performance was neither ran-
tion, some estimates were not developed independent      domly selected nor periodically changed to reflect the
of the contractors' proposals. Further, estimators did   broad range of customers involved. In addition, GSA
not make site visits even though such visits can be      did not have a formal, ongoing monitoring system to
vital in obtaining first hand information on site con-   verify the Customer Supply Center's performance
ditions and the scope of work needed. IFinally, esti-    and determine customer satisfaction. As a result,
mates often contained mathematical errors that led       GSA could not be sure that performance comparisons
to inaccurate estimates and hampered the Govern-         between, and performance monitoring of, the con-
ment in negotiating fair and reasonable prices.          tractor and the Customer Supply Center were mean-
                                                         ingful or reliable.
The December 3, 1990 report recommended that the
Assistant Regional Administrator, Public Buildings       The November 13, 1990 report directed three recom-
Service:                                                 mendations to the Commissioner, Federal Supply
                                                         Service and two recommendations to the Regional
  •   Undertake a study to determine the reasons
                                                         Administrator, Federal Supply Service. These in-
      estimates generally vary substantially from
                                                         cluded recommendations to:
      the lessors' proposals and develop pro-
      cedures to improve the usefulness of Gov-            •   Use the same criteria for shipment of orders
      ernment estimates.                                       when comparing the performance of the
                                                               contractor with the performance of the Cus-
  •   Instruct estimators to document the esti-
                                                               tomer Supply Center.
      mating source pricing data used.
                                                           •   Establish a formal, ongoing monitoring pro-
  •   Direct estimators to comply with estab-
                                                               cess to verify performance data reported by
      lished requirements regarding independence
                                                               the Customer Supply Center and to evaluate
      in the preparation of estimates.
                                                               customer satisfaction with the Customer
  •   Evaluate the need for site visits when a re-             Supply Center.
      quest for estimate is received and conduct
                                                           •   Modify the procedure for selecting the cus-
      visits when appropriate.
                                                               tomers used to monitor contractor perform-
  •   Ensure that estimates are thoroughly re-                 ance so that the sample is randomly selected
      viewed for mathematical accuracy.                        and periodically changed.




                                                                                                              3
The Commissioner and the Regional Administrator           acqUISitlOn process. For example, we found that re-
provided responsive action plans for implementing         quired acceptanee inspections had not always been
the report .recommendations. A management deci-           performed prior to lease commencement. As a result,
sion was achieved on February 22, 1991.                   the Government paid for unneeded space, alterations
                                                          never received, and services specifically identified in
                                                          the lease as being performed at no additional cost.
Janitorial Firm Owner Convicted
                                                          In addition, we found that the Facilities Support Cen-
A joint investigation conducted by the GSA OIG, Fed-
                                                          ter did not award leases in a timely manner, and that
eral Bureau of Investigation, and state and local au-
                                                          delays occurred in processing client agency requests
thorities disclosed that the owner of a janitorial firm
                                                          for space and issuing lease digests to begin rental pay-
submitted fraudulent bid documents. The owner
                                                          ments. As a result, competition was limited, building
used both personal and business aliases to conceal
                                                          owners were asked to extend their offers and their
that he and his company had been debarred from con-
                                                          existing leases, and the Government was exposed to
ducting business with the Government. The investi-
                                                          interest penalties for late rent payments to lessors.
gators reviewed bid documentation submitted in
support of 26 GSA contracts, valued in excess of          Our October 11, 1990 report directed eleven recom-
$14 million, for janitorial, maintenance, and security    mendations to the Assistant Regional Administrator,
guard services. This nationwide review established        Public Buildings Service, to correct identified defi-
that a majority of the owner's bid submissions con-       ciencies. These included recommendations that the
tained fraudulent information. The fraudulent docu-       Director, Real Estate Division:
ments included forged bid bonds, forged power of
attorney forms, false and forged financial statements,      •   Ensure that acceptance inspections are con-
and false representation with respect to the owner's            ducted on the leases reviewed in the report
identity, address, and debarment status.                        and resolve differences under these leases.

As a result of the investigation, a Federal Grand Jury      •   Implement the available tracking system to
indicted the owner on charges of making false state-            better control and manage the lease acquisi-
ments and mail fraud. On January 4, 1991, he pled               tion process.
guilty in U. S. District Court to two counts of mail        •   Establish procedures and controls to ensure
fraud; sentencing is scheduled for April 1991.                  the timely processing of space requests and
                                                                lease digests.
Lease Acquisition Program                                 The Regional Administrator provided responsive ac-
An OIG review of the Lease Acquisition Program at a       tion plans for implementing the report recommenda-
regional Facilities Support Center disclosed that the     tions. A management decision was achieved on
Center needed to improve controls over the lease          February 14, 1991.




4
                                AGENCY OPERATIONS
II                                                                                                             II
The General Services Administration is a central         The November 16, 1990 report recommended that
management agency that sets Federal policy in such       the Commissioner, Information Resources Manage-
areas as Federal procurement, real property manage-      ment Service:
ment, and telecommunications. GSA also manages
diversified Government operations involving build-         •   Develop a cyclical status reporting mecha-
ings management, supply facilities, real and personal          nism for use in tracking major projects and
property disposals and sales, data processing, and mo-         resolve issues identified by the quality as-
tor vehicle and travel management. In addition, GSA            surance staff before a project is allowed to
                                                               continue to the next life cycle phase.
manages over 115 accounting funds as well as pro-
vides cross-servicing support for client agencies.         •   Ensure that planning documents for all ma-
                                                               jor GSA projects be independently reviewed
                                                               and approved by the Systems Assurance
                                                               Branch.
                                                         The Commissioner provided responsive action plans
                                                         for implementing the report recommendations. A
                                                         management decision was achieved on February 26,
Significant Audits and                                   1991.
Investigations
                                                         Contingency Planning for Computer
Quality Assurance                                        Systems
An OIG review of GSA's quality assurance program         The Office of Management and Budget Circular
for automated information systems development            A-130 requires Federal agencies to prepare contingen-
projects disclosed that these systems were not devel-    cy plans for computer systems in the event of emer-
oped according to quality assurance and systems de-      gency situations. Within GSA, the Information
velopment procedures. For example, required project      Resources Management Service is responsible for de-
plans were not prepared; completion dates were not       veloping and issuing directives and guidance, and for
realistic; required references to GSA requirements       enforcing security requirements. System owners are
were not included in the statements of work provided     responsible for developing and implementing contin-
to contractors; and quality assurance was not estab-     gency plans that indicate how processing support and
lished as an independent function. While the quality     essential service would be provided if normal opera-
assurance analysts in the Systems Assurance Branch       tions were interrupted.
reported these problems to the project leaders, defi-
                                                         This period, OIG evaluations of the 19 essential GSA
ciencies were not corrected until they became more
                                                         systems revealed that most system owners have not
serious. As a result, there were unnecessary expendi-
                                                         developed written contingency plans or conducted
tures and delays.
                                                         periodic system tests using the backup hardware,
We also found that under current procedures the Sys-     software, and historical data files. We found that only
tems Assurance Branch is not notified of new systems     one system owner has a written contingency plan,
development projects until after the final version of    while three other systems may have adequate contin-
the 5-Year Strategic Plan for Automated Information      gency procedures due to the nature of the hardware
has been developed. Based on our review, problems in     utilized and the use of standard data retrieval manu-
systems development, such as delays and budget           als. Further, only one system's contingency plan has
overruns, could be traced to the early stages of the     been tested as required. As a result, there is no assur-
process. In our opinion, the Systems Assurance           ance that many of GSA's essential computer systems
Branch should be involved at the beginning of every      would continue to operate in the event that normal
major systems development project.                       processing was interrupted.



                                                                                                                5
We attributed the absence of written, tested contin-      lease files reviewed contained surveys. Further, even
gency plans to both the system owners not complying       for this 25 percent, surveys either failed to evaluate
with Information Resources Management Service di-         all requirements or were not referred for risk analyses
rectives, mainly due to their unwillingness to expend     when deficiencies were identified. Unless proper sur-
the necessary resources, and to inadequate oversight      veys are performed, GSA could award leases for build-
by the Systems Assurance Branch. The Branch has           ings that do not meet fire and safety standards,
not been effective in ensuring that system owners         thereby potentially jeopardizing the safety of Govern-
have properly developed and maintained contingency        ment employees and property.
plans. We believe that this occurred because the
                                                          Our December 21, 1990 report recommended that the
Branch did not review system documentation, moni-
                                                          Assistant Regional Administrator, Public Buildings
tor the effectiveness of the controls on which they
                                                          Service:
relied, or report to top management thc extent of non-
compliance by the system owners. Further, the               •   Ensure that safety and environmental sur-
Branch did not have the authority to enforce compli-            veys are conducted on all leased buildings
ance, short of recommending the termination of a                identified in the report and, if deficiencies
service or staff office's delegation of data processing         are found, perform risk analyses and require
procurement authority.                                          lessors to correct these deficiencies.
The March I, 1991 report recommended that the               •   Establish and implement adequate controls
Commissioner, Information Resources Management                  to ensure that realty specialists adhere to
Service, require that the Systems Assurance Branch              prescribed procedures.
annually review system security documentation sub-
                                                          The Regional Administrator provided responsive ac-
mitted by services and staff offices to determine the
                                                          tion plans for implementing the report recommenda-
adequacy of each system owner's compliance with
                                                          tions. A management decision was achieved on
prescribed requirements, document the scope and re-
                                                          March 21, 1991.
sults of the reviews, report the nature and extent of
any noncompliance to the appropriate head of service
or staff office and determine the actions needed to
comply. If corrective actions have not been imple-
mented by the next annual review, report noncom-          Surplus Property Program
pliance directly to the Administrator for appropriate
                                                          Public Law 94-519 assigns GSA responsibility for ad-
action.
                                                          ministering the Federal Surplus Property Donation
The Commissioner concurred with the recommenda-           Program. Under this program, states are eligible to
tion in the draft report. We are awaiting a manage-       receive Federal surplus personal property and donate
ment decision on the recommendation.                      it to qualified public and private nonprofit organiza-
                                                          tions. Each state establishes a state agency for surplus
                                                          property to administer the program at the state level.
Safety Concerns                                           This period, the OIG completed evaluations of the
                                                          operations at three state agencies for surplus property.
One of GSA's paramount areas of concem is providing
                                                          These reviews disclosed that, while one agency was
a healthy, safe work environment for Federal employ-
                                                          operating in compliance with applicable regulations,
ees. Safety and environmental surveys assess the lev-
                                                          neither of the other agencies properly accounted for
el of safety in space being offered to GSA for lease.
                                                          surplus property it had received from the Govern-
Real Estate Division realty specialists arc authorized
                                                          ment, effectively monitored donee compliance with
to conduct required surveys on leasing actions involv-
                                                          utilization restrictions on Federal surplus property, or
ing less than 10,000 square feet of office space or
                                                          provided adequate protection from theft or loss. In
20,000 square feet of storage space.
                                                          addition, one agency did not ensure that only author-
An OIG regional review of the Real Estate Division's      ized individuals received surplus property. Unless
performance of safety and environmental surveys re-       state agencies are in full compliance with applicable
vealed that realty specialists frequcntly did not per-    Federal regulations and have adequate controls in
form required surveys. In fact, only 25 percent of the    place, there is no guarantee that surplus property is




6
being put to the best use available nor being donated     2 years in prison (suspended) and 3 years probation.
to those who can best utilize it.                         The state agency terminated both employees after be-
                                                          ing informed of their activities. Debarment actions
In two reports, dated October 18, 1990 and February 25,
                                                          against these individuals are pending.
1991, respectively, we recommended specific actions
to correct identified deficiencies. These included rec-
ommendations that the cognizant Assistant Regional
Administrator, Federal Supply Service, have the state     Impersonation of Federal Official
agency:                                                   orG investigators determined that an individual ille-
  •   Properly account for Federal surplus prop-          gally attempted to purchase approximately $35,000
      erty in its possession.                             worth of computer equipment and accessories by pos-
                                                          ing as a GSA official. An investigation was initiated
  •   Establish a timetable for installing an auto-       after a computer company sales representative in-
      mated inventory system and develop an in-           formed us that an individual ordering computer
      terim plan of operation to ensure accurate          equipment had identified himself as a "Chief GSA
      inventory records until the automated sys-          Investigator." The investigators established that the
      tem is operational.                                 subject ordered computer equipment from several
  •   Ensure adequate protection of property              vendors using fictitious purchase order numbers. He
      items from theft.                                   then confirmed the orders by faxing letters written on
                                                          GSA letterhead along with phony purchase orders.
  •   Implement controls to verify the identity of        The individual requested that the equipment be de-
      donee representatives who receive property.         livered to an express mail company office where he
The Regional Administrator provided responsive ac-        had opened a billing account in the name of a nonex-
tion plans for implementing the report recommenda-        istent GSA office.
tions in the October 18, 1990 report, and a               An OrG surveillance of the company office resulted in
management decision was achieved on March 20,             agents observing a man sign for the ordered equip-
1991. We are awaiting management decisions on the         ment. He was then placed under arrest when he re-
recommendations in the February 25, 1991 report.          moved the equipment from the express office. A
                                                          subsequent search of the individual's residence re-
                                                          vealed a portable fax machine as well as documents
                                                          including letters on GSA letterhead, various purchase
Theft of Federal Surplus Property                         orders, and vendor catalogs.
A joint GSA OIG and State Highway Patrol investiga-
                                                          A Grand Jury indicted the subject on five counts of
tion resulted in the convictions of two state agency      wire fraud and one count of false personation. On
for surplus property employees on theft charges. It
                                                          March 26, 1991, the individual entered a plea of Nolo
was suspected that the employees stole Federal sur-
                                                          Contendere to all counts. Sentencing is scheduled for
plus property and then sold it to a private industrial
                                                          June 25, 1991.
equipment company. A search warrant executed on
the company's premises resulted in the seizure of
many items believed to have been stolen.
Extensive review of Federal and state property records
                                                          Relocation of Household Goods
by OIG agents disclosed that many of the seized           GSA's Household Goods Traffic Management Pro-
items were Federal surplus property missing from the      gram was established to help ensure that household
state agency. The surplus property, with an original      goods belonging to relocated Government employees
acquisition cost of over $100,000, included aircraft      get moved in an efficient, cost effective manner. Ci-
equipment, air compressors, lathes, and generators.       vilian Federal agencies, who are mandatory users,
                                                          spent approximately $66 million under this program
In November 1990, both employees were sentenced
                                                          during the fiscal year reviewed.
in County Court. One employee was sentenced to
3 years in prison (suspended), placed on 3 years proba-   An orG evaluation of GSA's administration of the
tion, and ordered to serve 60 days in a County Correc-    program disclosed that, while the program was gener-
tion Center; the other employee was sentenced to          ally being effectively administered and agencies were




                                                                                                               7
satisfied, improvements are possible in several areas.      understanding of the program, and input to GSA,
We identified that over 45 percent of the loss and          would result in improved operations.
damage claims submitted to carriers were not settled
                                                            The December 10, 1990 report recommended that the
within the prescribed 60 day timeframe, and that al-
                                                            Assistant Regional Administrator, Federal Supply
most 19 percent took more than 120 days to settle.
                                                            Service:
Further, the FSS Program Management Office, which
has responsibility for managing the program, did not          4»   Require carriers to explain why claims were
respond to agency/employee service quality com-                    not settled in prescribed timeframes, and
plaints in a timely fashion. Since these complaints                take appropriate disciplinary actions against
are normally submitted only after unsuccessful at-                 noncomplying carriers.
tempts to reach resolution with carriers, they are al-
                                                              4»   Require Program Management Office per-
ready quite old and demand prompt responses by
                                                                   sonnel to acknowledge receipt of service
GSA. We also found that the criteria used for selecting
                                                                   quality complaints in a timely manner.
carriers for compliance reviews with program require-
ments were based on the volume of moves made or               4»   Request agencies to submit carrier evalua-
carrier location. We feel that giving consideration to             tion forms within a reasonable period fol-
past performance would allow GSA to better select                  lowing an employee relocation.
carriers for these reviews. In addition, we noted that
                                                              4»   Regularly provide customer agencies with
only 22 percent of the employees utilizing the pro-
                                                                   information regarding program operations
gram completed and submitted evaluations of carri-
                                                                   and solicit suggestions for improvements.
ers. This data is essential if problem carriers are to be
identified for prompt corrective actions. Finally, we       The Regional Administrator provided responsive ac-
found that agencies did not always receive program          tion plans for implementing the report recommenda-
information, nor were agency comments solicited on          tions. A management decision was achieved on
the program. We believe that greater agency                 March I, 1991.




8
                              PREVENTION ACTIVITIES
II                                                                                                                II
Significant Pre award Audits                               Other Contracts
The OIG's preaward audit program provides informa-         The OIG performed three significant audits involving
tion to contracting officers for use in negotiating con-   a claim for increased costs, an architectural and engi-
tracts. The pre-decisional, advisory nature of pre-        neering services proposal, and a lease escalation pro-
award audits distinguishes them from other audits.         posal. Details on the three audits, with a total audited
This period, the OIG performed preaward audits of          value of over $7.5 million, are as follows:
213 contracts with an estimated value of $1.2 billion.
                                                             •   The OIG audited a claim for increased costs
The audit reports contained over $92 million in finan-
                                                                 due to Government-caused delays on the
cial recommendations.
                                                                 construction of a Federal building. The con-
                                                                 tractor alleged that differing site conditions
Multiple Award Schedule Contracts                                and other Government actions extended the
                                                                 contract work period, resulting in increased
The OIG performed four significant audits involving
                                                                 costs. The audit report advised the contract-
multiple award schedule contracts with total esti-
                                                                 ing officer that costs contained in the claim
mated Government-wide sales of $208.2 million.
                                                                 were overstated or unallowable, and recom-
Based on our findings, the auditors recommended
                                                                 mended an adjustment of $1.9 million to the
that $24.2 million in funds be put to better use.
                                                                 claimed amount. Most of the adjustment
The OIG evaluated discount schedule and marketing                was in the following categories: administra-
data submitted in response to four GSA solicitations:            tive salaries, support facilities, commis-
one for washing compounds, additives, and laundry                sions, bonds, and unabsorbed home office
detergents; one for legal publications; one for copying          overhead.
equipment; and the other for ADP furniture and de-
vices. The first audit report advised the contracting        •   The OIG audited a firm's $3.9 million pro-
                                                                 posal for providing architectural and engi-
officer that, while the firm's offer disclosed that dis-
                                                                 neering services at a Federal building, and
counts offered to commercial customers exceeded
                                                                 determined that the proposed costs were
those offered to GSA, the firm's rationale for not of-
                                                                 overstated or unsupported. Based on these
fering GSA equivalent discounts was not justified.
                                                                 findings, along with GSA technical evalua-
The second audit report advised the contracting offi-
                                                                 tions, the auditors recommended adjust-
cer that the firm's proposal did not fully disclose the
                                                                 ments totaling $1,813,234 in the following
extent of discounts and concessions offered to its
                                                                 categories: direct labor, printing, and sup-
commercial customers. The third audit report ad-
                                                                 port materials.
vised the contracting officer that the firm did not sub-
mit accurate, current, and eomplete data. We also            •   An OIG audit of a $1.2 million lease escala-
advised that the firm offered higher discounts to cus-           tion proposal determined that the proposal
tomers with smaller sales volume than were dis-                  did not fully comply with the terms of the
closed in the offer to GSA. Finally, commercial                  lease. We advised the contracting officer
customers were offered better maintenance terms                  that the proposal included operating costs
than those disclosed and offered to GSA. The fourth              not subject to escalation. We further advised
report advised the contracting officer that the Gov-             that use of historical data, such as actual
ernment was not offered discounts equal to some                  costs and the consumer price index rather
commercial customers even though it was the firm's               than the lessor's judgmental estimates, re~
largest customer by far and merited most favored cus-            sulted in significantly lower escalation pro-
tomer status. Further, discounts being offered to GSA            jections. In total, the auditors recommended
were lower than those granted a Federal agency under             adjustments totaling $1.6 million--meaning
a current indefinite quantity contract it holds.                 that GSA's total rental payments over the




                                                                                                                  9
       3-year period covered by the proposal should                operating costs; inadequate planning and coordina-
       be $424,107 less than paid over the previous                tion with tenant agencies; requested parking spaces
       3-year period.                                              not provided; and missing or incomplete appraisal
                                                                   report.

Federal Managers' Financial
Integrity Act Reviews                                              Integrity Awareness
The OIG furnishes GSA management with extensive                    Integrity Awareness Briefings comprise the OIG's pri-
technical assistance and advice relative to the Federal            mary vehicle for educating employees on their re-
Managers' Financial Integrity Act that requires GSA                sponsibilities for the prevention of fraud and abuse,
to provide assurance that Agency resources are pro-                and for reinforcing employees' roles in helping to en-
tected from fraud, waste, mismanagement, and mis-                  sure the integrity of Agency operations. These brief-
appropriation. This period, the OIG reviewed GSA's                 ings explain the statutory mission of the OIG and the
efforts in carrying out Section 2 of the Act, including            methods available for reporting suspected instances
evaluations of Fiscal Year 1990 assurance statements.              of wrongdoing. In addition, through case studies and
We advised management that, while the majority of                  slides, the briefings expose GSA employees to actual
the assurance statements were complete and appro-                  instances of white collar crime in GSA and other Fed-
priately reported control weaknesses, a few state-                 eral agencies. This period, we presented 16 briefings
ments were not reliable. We noted that two assurance               which were attended by 588 Central Office and re-
statements did not completely report control weak-                 gional employees.
nesses and that four program component risk assess-
ments were inappropriate.
                                                                   Hotline
Advisory Lease Reviews                                             The Hotline is another part of our prevention pro-
                                                                   gram. It provides an avenue for concerned employees
The OIG's program for reviewing leases prior to                    to report suspected wrongdoing. Hotline posters lo-
award provides front-end assurance that GSA is ad-                 cated in GSA-controlled buildings as well as Hotline
hering to regulations and procedures before awarding               brochures encourage employees to use the Hotline.
selected leases involving annual rentals in excess of              During this reporting period, we received 64 Hotline
$400,000. The reviews, although advisory in nature,                calls and letters. Of these, 37 complaints warranted
promote opportunities for economy and efficiency in                further action. We also received 3 referrals from GAO
the leasing area, and the avoidance of problems before             and 5 referrals from other agencies; 6 of these referrals
they occur.
                                                                   required further action.
The program achieved the following results during
the reporting period:
     Lease proposals submitted for review ....... 56               Implementation Reviews
     Lease proposals reviewed ........ ........ ............. 30
                                                                   The OIG performs independent reviews of implemen-
     Lease proposals with deficiencies .............. 23
                                                                   tation actions, on a test basis, to ensure that correc-
     Lease proposals with no deficiencies ......               7
                                                                   tive actions are being accomplished according to
Major deficiencies identified through OIG advisory                 established milestones. This period, .the OIG per-
lease reviews related to: the improper exclusion of                formed 13 implementation reviews. In 8 of these
properties from consideration during the market sur-               cases, management was successfully implementing
vey; an inadequate tax adjustment clause; a tenant's               the recommendations. In the other 5 instances, rec-
nonacceptance of the lease site; the financial capa-               ommendations were not being implemented in ac-
bility of the lessor; and the undocumented resolution              cordance with the established action plans; we
of a fire safety deficiency. Other deficiencies in-                advised management of the need to revise the action
cluded: incomplete lease files; inflated base rate for             plans.




10
           REVIEW OF LEGISLATION AND REGULATIONS
II                                                                                                             II
During this period, the OIG reviewed 149 legislative           Cultural and Trade Commission's lease pay-
matters and 116 proposed regulations and direc-                ments do not permit the building to be self-
tives. The OIG provided significant comments on the            sufficient. We commented that this provi-
following legislation, regulations, orders, and                sion does not encourage fiscal responsibility
directives:                                                    on the part of the Commission.
                                                           •   PBS 3430, Design and Construction Opera-
     •   H. R. 5071, the Federal Triangle Develop-             tion Policies and Procedures. We com-
         ment Act Amendments 011990. We opposed                mented that the Order does not adequately
         this revised bill, especially the provision au-       address the policy and requirements set
         thorizing an increase in the size of the build-       forth in the Office of Management and Bud-
         ing. We believe that, since GSA's lease               get Circular A-76. The Order appears to give
         payments provide the security for the fi-             preference to contracting out for services
         nancing of the building, the developer                without consideration to cost. The Circular
         should be required to obtain GSA's concur-            requires a comparison of the cost of contrac-
         rence before increasing its size. We also ex-         ting and the cost of in-house performance to
         pressed reservations about making the GSA             determine who will do the work. We sug-
         Administrator responsible for obtaining               gested modifying the Order to reflect these
         additional funding if the International               requirements.




                                                                                                               11
     STATISTICAL SUMMARY OF OIG ACCOMPLISHMENTS

Audit Reports Issued                                                                    Management Decisions on
The OIG issued 355 audit reports, including 3 audits
                                                                                        Audit Reports
performed by the OIG that were issued to other                                          Table 1 summarizes the status of the universe of
agencies and 7 audits performed for the OIG by                                          audits requiring management decisions during this
another agency. The 355 reports contained financial                                     period, as well as the status of those audits as of
recommendations totaling $94,886,458, including                                         March 31, 1991. Twenty-six reports more tha::l 6
$92,238,053 in recommendations that funds be put to                                     months old were awaiting management decisions as
better use and $2,648,405 in questioned costs. Due to                                   of March 31, 1991; but all of them were preaward
GSA's mission of procuring supplies and services for                                    audits, which are not subject to the 6-month manage-
the Government, most of the recommendations that                                        ment decision requirement. Table 1 does not include
funds be put to better use were applicable to funds                                     3 reports issued to other agencies this period and 46
other agencies would expend under GSA's                                                 reports excluded from the management decision pro-
Government-wide contracts.                                                              cess because they pertain to ongoing investigations.



                                            Table 1. Management Decisions on OIG Audits
                                                                                               Reports With               Total
                                                                               No. of            Financial              Financial
                                                                              Reports        Recommendations        Recommendations
     For which no management decision
       had been made as of 10/1/90

            Less than 6 months old .................... .                       178                  118               $ 93,972,504
            More than 6 months old .................. .                          32                   31                 17,516,914

     Reports issued this period ...................... ..                      352                  197                  94,886,458
     Total .............................................................. .    562                  346                $206,375,876

     For which a management decision was
       made during the reporting period

         Issued prior periods .......................... ..                    184                   127               $106,853,491
         Issued current period ........................ .                      209                    84                 35,747,783
     Total ............................................................. ..    393                   211               $142,601,274

     For which no management decision
       had been made as of 3/31/91

         Less than 6 months old .................... .                          143                  113               $ 59,138,675
         More than 6 months old .................. .                             26                   22                  4,635,927
     Total .............................................................. .     169                  135               $ 63,774,602




12
Management Decisions on Audit                                                                       Tables 2 and 3 present the audits identified in Table 1
                                                                                                    as containing financial recommendations by category
Reports With Financial                                                                              (funds to be put to better use or questioned costs/.
Recommendations                                                                                     Some of the reports contained recommendations that
                                                                                                    funds be put to better use as well as questioned costs,
                                                                                                    and these reports are therefore included in both
                                                                                                    Tables 2 and 3.



                                     Table 2. Management Decisions on OIG Audits With
                                      Recommendations That Funds Be Put to Better Use
                                                                                                                     No. of          Financial
                                                                                                                     Reports     Recommendations
   For which no management decision
     had been made as of 10/1/90

          Less than 6 months old ........................................................... ..                        108          $ 88,494,578
          More than 6 months old ......................................................... ..                           22              9,546,871

   Reports issued this period .............................................................. ..                       169             92,238,053
   Total ....................................................................................................... .    299           $190,279,502
   For which a management decision was
     made during the reporting period

          Recommendations agreed to by
          management based on proposed

              management action ............................................................. ..
              legislative action ................................................................... .

       Recommendations not agreed to                                                                                                   20,329,447
       by management .......................................................................... .
   Total ....................................................................................................... .     181          $131,932,871 *
   For which no management decision
     had been made as of 3/31/91

       Less than 6 months old ............................................................ .                            96          $ 57,690,577
       More than 6 months old .......................................................... .                              22             3,953,766
   Total ....................................................................................................... .     118          $ 61,644,343
   *Includes $3,297,712 that management decided to seek that exceeded recommended amounts.




                                                                                                                                                         13
                                                         Table 3. Management Decisions on
                                                         OIG Audits With Questioned Costs
                                                                         No. of             Questioned             Unsupported
                                                                         Reports              Costs                   Costs
     For which no management decision
       had been made as of 10/1/90

            Less than 6 months old .............. ..                       10              $ 5,477,926                $
            More than 6 months old ............ ..                         11                7,970,043

     Reports issued this period .................. ..                      29                2,648,405
     Total ........................................................ ..     50              $16,096,374                $

     For which a management decision
       was made during the reporting
       period

         Disallowed costs .......................... .                                     $13,319,317*               $
         Costs not disallowed .................. ..                                          7,035,194
     Total ........................................................ ..     30              $20,354,511 * *            $

     For which no management decision
       had been made as of 3/31/91

         Less than 6 months old .............. ..                          18              $ 1,448,098                $
         More than 6 months old ............ ..                             2                  682,161
     Total ......................................................... .     20              $ 2,130,259                $
      *Includes $11,347,500 also reported under Monetary Results.
     **Includes $6,388,396 that management decided to seek that exceeded recommended amounts.



Investigative Workload                                                             Referrals
                                                                                   The OIG makes criminal referrals to the Department
                                                                                   of Justice or other authorities for prosecutive consid-
The OIG opened 251 investigative cases and closed                                  eration and civil referrals to the Civil Division of the
245 cases. These totals include the 100 complaints 1                               Department ofJustice or a U.S. Attorney for litigation
allegations the OIG received and evaluated from                                    consideration. The OIG also makes administrative
sources other than the Hotline that involved GSA                                   referrals to GSA officials on cases disclosing non-
employees and programs. Based upon analyses of                                     prosecutable wrongdoing on the part of GSA employ-
these allegations, OIG investigations were not                                     ees, contractors, or private individuals doing business
warranted.                                                                         with the Government.




14
                                                          Table 4. Summary of OIG Referrals
                          Type of Referral                                                            Cases                       Subjects

     Criminal ................................................................. .                       28                           65
     Civil ......................................................................... .                  10                           26
     Administrative ..................................................... .                             64                          114
     Total ........................................................................ .                  102                          205


In addition, the OIG made 1 referral to another Feder-                                   38 contractors, reprimanded 16 employees, sus-
al agency for further investigation or other action and                                  pended 2 employees, and terminated 2 employees.
49 referrals to GSA officials for informational pur-
poses only.
                                                                                         Monetary Results
                                                                                         Table 5 presents the amounts determined to be owed
                                                                                         the Government as a result of criminal and civil ac-
Actions on OIG Referrals                                                                 tions. The amounts do not necessarily reflect actual
Based on these and prior referrals, 17 cases (32 sub-                                    monetary recoveries.
jects) were accepted for criminal prosecution and
                                                                                         In addition, the OIG identified for recovery $464,737
7 cases (13 subjects) were accepted for civil litiga-
                                                                                         in money and/or property during the course of its
tion. Criminal cases originating from OIG referrals
                                                                                         in ves tiga tions.
resulted in 14 indictmentslinformations and 18 suc-
cessful prosecutions. OIG civil referrals resulted                                       Because civil actions involve both audit and investi-
in 6 civil fraud complaints and 12 settlements or                                        gative efforts, $11,347,500 of the amount reported as
judgments. Based on OIG administrative referrals,                                        civil recoveries is also reported under management
management debarred 48 contractors, suspended                                            decisions to disallow costs.



                                                     Table 5. Criminal and Civil Recoveries
                                                                                                  Criminal                        Civil

     Fines and Penalties .............................................. .                          $ 6,000                  $
     Settlements or Judgments ................................ ..                                                               11,362,093
     Restitutions ........................................................... .                     20,846
     Total ........................................................................ .              $26,846                 $11,362,093




                                                                                                                                             15
APPENDICES
     APPENDIX I-SIGNIFICANT AUDITS FROM PRIOR REPORTS

Under the Agency's audit management decision pro-           One of the remaining six recommendations requires
cess, GSA's Office of Administration, Office of Man-        the development of policies and procedures for the
agement Controls and Evaluation, is responsible for         rent exemption process. Another recommendation re-
tracking implementation of audit recommendations            quires a periodic review and recertification of all rent
after a management decision has been reached. That          exemptions. The remaining four recommendations
office furnished the following status information.          involve billings for rent exemptions granted without
                                                            adequate justification. Implementation is scheduled
Thirteen audits highlighted in prior Reports to the
                                                            for various dates between June 1991 and December
Congress have not been fully implemented; all are
                                                            1991.
being implemented in accordance with currently es-
tablished milestones.


Multiple Award Schedule Price Lists                         Fire Safety
Period First Reported: April 1, 1990 to September 30,       Period First Reported: October 1, 1989 to March 31,
1990                                                        1990
This review disclosed that refunds should be obtained       A series of eight OIG reviews identified the need to
from contractors who distributed inaccurate multiple        improve the monitoring of fire safety conditions at
award schedule price lists to Federal customers, re-        Federal facilities. Six reports were fully implemented
sulting in Federal purchasers paying inflated prices.       as of March 31, 1991. The remaining two reports con-
The report contained four recommendations; three            tained 16 recommendations; 14 have been im-
have been implemented.                                      plemented.
The remaining recommendation involved the recov-            One of the remaining recommendations involves the
ery of funds from contractors. It is scheduled for com-     testing of an emergency system. It is scheduled for
pletion in April 1991.                                      implementation in April 1991. The other recommen-
                                                            dation requires the performance of risk assessments.
Rental Payments                                             Full implementation is scheduled for May 1992.
Period First Reported: April 1, 1990 to September 30,
1990
This review found that improved controls over lease         Administration of Guard Service
payments were necessary. The report contained nine
recommendations; eight have been implemented.
                                                            Contracts
                                                            Period First Reported: October 1, 1989 to March 31,
The remaining recommendation, which requires the
                                                            1990
resolution of debits and credits for a lease and the
collection of any lease overpayments, is scheduled for      This regional review of the award and administration
implementation in April 1991.                               of guard service contracts found that the region
                                                            waived contractually required training without seek-
                                                            ing compensation from contractors, and that contrac-
Rent Exemptions                                             tors did not obtain required weapons permits. The
Period First Reported: April 1, 1990   to   September 30,   report contained 13 recommendations; 10 have been
1990                                                        implemented.
This review identified the need for better manage-          The remaining three recommendations involve seek-
ment and control of rent exemptions. The report con-        ing recoveries from contractors. Two arc scheduled
tained eight recommendations; two have been                 for implementation in April 1991; the other in August
implemented.                                                1991.

18
Commercial Facilities Management                          Multiple Award Schedule Program
Period First Reported: October 1, 1989 to March 31,       Period First Reported: October 1, 1988 to March 31,
1990                                                      1989
This review of a contractor's performance at a Federal    This review identified the need for GSA action to im-
facility concluded that actions needed to be taken to     prove the identification of the Government's office
improve the effectiveness of the Commercial Facili-       machine needs. The report contained five recommen-
ties Management Program. The report contained 15          dations; three have been implemented.
recommendations; 14 have been implemented.
                                                          One of the remaining recommendations involves the
The remaining recommendation involved the recov-          implementation of procedures to ensure the capture
ery of contractor overcharges. It is scheduled for com-   of all contract award data. It is scheduled for comple-
pletion in April 1991.                                    tion in July 1991. The other recommendation in-
                                                          volves contracting officer reviews of internal
Personal Property Sales                                   management records. It is scheduled to be imple-
                                                          mented by September 1991.
Period First Reported: October 1, 1989 to March 31,
1990
This OIG review disclosed that improved controls
were necessary to properly account for all personal       Construction Contract Administration
property and to assure deposit of sales proceeds. The     Period First Reported: April 1, 1987 to September 30,
report contained 27 recommendations; 19 have been         1987
implemented.
                                                          This review of the construction of a Federal building
The eight remaining recommendations involve               advised GSA management of the need to enforce the
changes and improvements in internal controls.            requirements for schedules and price breakdowns in
These changes will be completed with revisions to a       construction contracts. The OIG made 13 recommen-
handbook and are scheduled for full implementation        dations; 12 have been implemented.
by September 1991.
                                                          The remaining recommendation involves obtaining a
Controls Over Accounts Receivable                         determination from an Architect and Engineering De-
                                                          ficiency Committee. The recommendation was origi-
Period First Reported: October 1, 1989 to March 31,       nally scheduled for completion in June 1988, then
1990                                                      implementation was revised to June 1990. The con-
This OIG review identified significant problems with      tractor has since filed an appeal with the GSA Board
billing procedures and computer programs used in the      of Contract Appeals.
Information Technology Fund. The report contained
six recommendations; two have been implemented.
Three of the recommendations require revisions to         Fire and Life Safety Systems
computer programs, while the other involves changes
                                                          Period First Reported: October 1, 1983 to March 31,
to the GSA billing document. Full implementation is
                                                          1984
scheduled for December 1991.
                                                          A series of seven OIG reviews identified deficiencies
Purchase Order Form                                       in fire and life safety systems in GSA-controlled
                                                          space. Six reports had been fully implemented by Sep-
Period First Reported: April 1, 1989 to September 30,     tember 1988. the remaining report contained four
1989                                                      recommcndations; three have been implemented.
This review of a purchase order form found that the       Implementation of the remaining recommendation,
design of the form caused problems with data entry,       which involves the installation of a new fire alarm
processing, and mailing. The report contained one         system in a Federal facility, is generally proceeding in
recommendation; it has not yet been implemented.          accordance with the action plan, although delays
The recommendation, which requires redesign of the        have been experienced and revised implementation
purchase order form, is scheduled for completion in       dates have been granted. Full implementation is now
September 1991.                                           scheduled for April 1991.


                                                                                                                19
            APPENDIX II-AUDIT REPORT REGISTER
II                                                                                                             II
                                                                                              Financial
                                                                                         Recommendations
                                                                                     Funds to      Questioned
Date of    Assignment                                                               Be Put To     (Unsupported)
Report     Number                                Title                              Better Use         Costs
           (Note: Due to the pre-decisional nature of some audits, the financial recommendations
           pertaining to these reports are not listed in this Appendix.)




PBS        Internal Audits
10/09/90   A00538     Review of Delivery Order P0690GY0071 Issued Under St.
                      Louis Term Construction Contract
10111190   A90678     Review of the Detroit Facilities Support Center, Lease                         $11,168
                      Acquisition Program, Region 5
10/23/90   A10032     Preaward Lease Review: Philadelphia Life Building,
                      615 Chestnut Street, Philadelphia, PA, Lease No.
                      GS-03B-09077
10/25/90   A90050     Review of Asbestos Abatement Program, Region 7                                 $98,033
10/31190   A10044     Preaward Lease Review: U.S. Attorney/Drug Enforcement
                      Administration, Lease No. GS-07B-13520
11/01190   A90971     Review of the Fire Safety Program, Region 3
11/02190   A10037     Pre award Lease Review: NRC, Arlington, Texas, Lease No.
                      GS-07B-13533
11/02190   A10040     Preaward Lease Review: U.S. Customs Service and U.S.
                      Immigration and Naturalization Service Border Station,
                      Ambassador Bridge, Detroit, Michigan, Lease No.
                      GS-05B-14114
11/05/90   AI0026     Pre award Lease Review: Baltimore Row Building, Atlanta,
                      GA, Lease No. GS-04B-30175
11/06/90   AI0028     Pre award Lease Review: Department of Veterans Affairs,
                      Ann Arbor, Michigan, Lease No. GS-05B-15260
11/06/90   AI0086     Prcaward Lease Review: Two Rincon Center, 101 Spear
                      Street, San Francisco, CA, Lease No. GS-09B-90062,
                      Supplemental Lease Agreement No.1
11/07/90   AI001l     Review of Escalation Clause: Lease No. GS-04B-1S460,
                      Homewood, AL
11/08/90   A9094S     Review of the Battery Buildings Management Field Office,
                      Region 2
11/09/90   AI0S14     Preaward Lease Review: Tinicum Industrial Park, 10
                      Industrial Highway MS #1, Lease No. GS-03B-09075


20
                                                                                            Financial
                                                                                       Recommendations
                                                                                   Funds to      Questioned
Date of     Assignment                                                            Be Put To     (Unsupported)
Report      Number                              Title                             Better Use         Costs
11/13/90    A00652   Postaward Lease Review: Military Entrance Processing
                     Station, Lansing, Michigan, Lease No. GS-05B-14625
11/13/90    AI0054   Pre award Lease Review: Key Tower Building, Seattle,
                     Washington, Lease No. GS-lOB-05617
11/13/90    AI0059   Pre award Lease Review: Alvarado Square, Albuquerque,
                     New Mexico, Lease No. GS-07B-13541
11/19/90    AlO039   Pre award Lease Review: Stafford Place II, 4201 Wilson
                     Boulevard, Arlington, VA, Lease No. GS-llB-00143
11/21/90    AlO093   Pre award Lease Review: 3475 Deer Creek Road, Palo Alto,
                     CA, Lease No. GS-09B-89691
11/23/90    A10813   Preaward Lease Review: U.S. Army Corps of Engineers,
                     Chicago, Illinois, Lease No. GS-05B-15173
11/27/90    A10613   Preaward Lease Review: Renaissance Square, Atlanta, GA,
                     Lease No. GS-04B-20016, Supplemental Agreement No. 22
12/03/90    AOO139   Review of Estimating Procedures Used by the PBS Design
                     and Construction Division, Region 7
12/04/90    AlO091   Preaward Lease Review: 75-95 Hawthorne Street, San
                     Francisco, CA, Lease No. GS-09B-89240
12/06/90    A00580   Review of Time and Attendance, North Spring Street Field
                     Office, Region 9
12/06/90    A00780   Postaward Lease Review: U.S. Fish and Wildlife Service and    $15,200          $6,198
                     Indian Health Service, Ashland, Wisconsin, Lease No.
                     GS-05B-14901
12/07/90    A00856   Pre award Lease Review: U.S. Forest Service Building,
                     Lakewood, Colorado, Contract No. GS-08P-1l997
12/21/90    A00620   Review of Pre lease Safety and Environmental Management
                     Surveys, Region 6
01 /04/91   AlO138   Preaward Lease Review: Two Rincon Center, San Francisco,
                     CA, Lease No. GS-09B-90062, Supplemental Lease
                     Agreement No.2
01/08/91    A00511   Audit of the Fire Safety Program, Region 4
01/10/91    A10528   Pre award Lease Review: Princeton Crossroads Corporate
                     Center, Ewing Township, NT, Lease No. GS-03B-10001
01/23/91    AOO640   Audit of the Wholesale Distribution Center Facilities,
                     Palmetto, GA
01/24/91    A00918   Audit of Maintenance and Control of Assets, Richmond
                     Field Office, Region 3
01/29/91    AI0335   Preaward Lease Review: One Pierrepont Plaza, Brooklyn,
                     New York, Lease No. GS-02B-22564
01/31/91    A1l626   Preaward Lease Review: Crystal Park Five, 2451 Crystal
                     Drive, Arlington, VA, Lease No. GS-llB-00148
01/31/91    A1l627   Preaward Lease Review: Washington Science Center, 6001,
                     6010, and 6015 Executive Blvd., Rockville, MD, Lease No.
                     GS-llB-I0l00


                                                                                                             21
                                                                                          Financial
                                                                                     Recommendations
                                                                                 Funds to      Questioned
Date of    Assignment                                                           Be Put To     (Unsupported)
Report     Number                            Title                              Better Use         Costs
02/15/91   A00164   Review of Fire Safety Conditions at the Federal Building
                    and U.S. Courthouse, Fort Wayne, Indiana
02/15/91   A10153   Pre award Lease Review: 238 A.F.e. Flores Street, Agana,
                    Guam, Lease No. GS-09B-90523
02/21/91   A00581   Review of Procurement, North Spring Street Field Office,
                    Region 9
02/21/91   AI0146   Pre award Lease Review: Greenway Park, San Antonio,
                    Texas, Lease No. GS-07B-13543
02/27/91   AI0534   Pre award Lease Review: The Wanamaker           Building,
                    Philadelphia, PA, Lease No. GS-03B-100l9
02/28/91   A00517   Review of Fire Safety Program, U.S. Courthouse, 1010 5th
                    Avenue, Seattle, WA
02/28/91   A10115   Review of Fire Safety Program, Federal Building/Post
                    Office, 777 Sonoma Avenue, Santa Rosa, CA
02/28/91   A10835   Review of Fire Safety Conditions at the Federal Building
                    and U.S. Courthouse and Customhouse, Duluth,
                    Minnesota
02/28/91   Al1016   Pre award Lease Review: 108th and Burt, Omaha, Nebraska,
                    Lease No. GS-06P-09862
03/13/91   A11026   Pre award Lease Review: 1201 Walnut,       Kansas City,
                    Missouri, Lease No. GS-06P-19883
03/21/91   A10627   Preaward Lease Review: 1441 Main Building, Columbia,
                    SC, Lease No. GS-04B-30349
03/22/91   Al1635   Preaward Lease Review: 810 Seventh          Street,   NW,
                    Washington, DC, Lease No. GS-IIB-10134
03/27/91   A00605   Review of Preventive Maintenance and Control of Assets:
                    Syracuse Buildings Management Field Office and Greater
                    Manhattan Field Office
03/27/91   A10536   Preaward Lease Review: The Wanamaker            Building,
                    Philadelphia, PA, Lease No. GS-03B-10224
03/27/91   Al1630   Preaward Lease Review: Techworld Office Center, 800 K
                    Street, NW, Washington, DC, Lease No. GS-11B-10111
03/28/91   A10355   Preaward Lease Review: Casa Lee Office          Building,
                    Santurce, Puerto Rico, Lease No. GS-02B-18899

PBS        Contract Audits
10/01/90   A00767   Pre award Audit of Letter Contract: Parco Construction,
                    Inc., Contract No. GS-04P-89-EX-C0099
10/01/90   A00830   Preaward Audit of Architect and Engineering Services Con-
                    tract: Casazza, Peetz & Hancock, Project No. ZCA89080,
                    GS09P90KTC0007
10/02/90   A00319   Preaward Audit of Change Order Proposal for Space Heaters
                    Expense: Terminal Construction Corp.-e.O. #266, Con-
                    tract No. GS-02P-23256


22
                                                                                         Financial
                                                                                     Recommendations
                                                                                  Funds to     Questioned
Date of    Assignment                                                            Be Put To    (Unsupported)
Report     Number                             Title                              Better Use       Costs

10/03/90   A00773   Preaward Audit of Architect and Engineering Services Con-
                    tract: Planning, Design & Research Engineers, Inc., Con-
                    tract No. GS-04P-90-EXD-0037
10/03/90   AOO774   Preaward Audit of Architect and Engineering Services Con-
                    tract: Fire Protection Associates, Inc., Contract No.
                    GS-04 P -90-EXD-003 7
10/03/90   AOO77S   Preaward Audit of Architect and Engineering Services Con-
                    tract: Geotek Engineering Company, Contract No.
                    GS-04 P -90-EXD-003 7
10/03/90   AOOS17   Preaward Audit of Architect and Engineering Supplemental
                    8(a) Design Contract for Various Projects in Region 9: Bay
                    Architects Associates, Inc., Project No. ZCA90090
10/03/90   AOOS74   Postaward Audit of Contractor Payments: United Parking,
                    Inc., Contract No. GS-04PTS-PKG for the Period July I,
                    19S5 Through June 30, 1990
10/11/90   A007S7   Accounting System Survey: BPT Properties, L.P., Solicita-
                    tion No. GS-02B-22478
10/15/90   AOOS10   Preaward Audit of Architect and Engineering Services Con-
                    tract: Hayes, Seay, Mattern & Mattern, Inc., Contract No.
                    GS03P89DXC0078
10/16/90   AOOS14   Preaward Audit of Architect and Engineering Services Con-
                    tract: Wagner-Hohns-Inglis, Inc., Project No. ZCA90060
10/IS/90   AOOS33   Preaward Audit of Architect and Engineering Services Con-
                    tract: Flack & Kurtz Consulting Engineers, Consultant to
                    Lohan Associates, Inc., Solicitation No. GSOSPS9GBC01l2
10/23/90   A002S0   Audit of Claim for Increased Costs: Tutor-Saliba Corpora-
                    tion, Contract No. GS09PSSKTC0232
10/23/90   AOO646   Postaward Audit of Labor Hours: Day & Zimmermann,                           $62,502
                    Inc., Contract No. GS06PS6GYCOOS2
10/25/90   AOOS31   Preaward Audit of Architect and Engineering Services Con-
                    tract:  Lohan    Associates,    Inc.,  Solicitation   No.
                    GSOSP89GBCOl12
10/30/90   AOOSS8   Preaward Audit of Overhead Expense Rates for Construc-
                    tion Change Orders: Stein & Company Federal Center, Inc.,
                    Lease No. GS-OSB-148S0
10/30/90   AOOS90   Preaward Audit of Architect and Engineering Services Con-
                    tract: Holmes & Narver, Inc., Project No. ZCAS9100, Solic-
                    itation No. GS09P90KTD0007
10/31/90   AOO923   Preaward Audit of Supplemental Architect and Engineering
                    Services Contract: Einhorn Yaffee Prescott Architecture
                    and Engineering, P.c., Solicitation No. GS-llPEGC0l60
11/01/90   AI0020   Preaward Audit of Architect and Engineering Services Con-
                    tract: Glurnac & Associates, Inc., Solicitation No.
                    GS-09P-90-KTD-0044
11/07/90   A00910   Preaward Audit of Lease Escalation Proposal: C & C Invest-
                    ments, Lease No. GS-09B-06600


                                                                                                          23
                                                                                           Financial
                                                                                      Recommendations
                                                                                  Funds to      Questioned
Date of    Assignment                                                            Be Put To     (Unsupported)
Report     Number                              Title                             Better Use         Costs
11/07/90   A00911   Preaward Audit of Lease Escalation Proposal: C & C Invest-
                    ments, Lease No. GS-09B-82252
11/13/90   A00855   Preaward Audit of Architect and Engineering Services Con-
                    tract: Sverdrup Corporation, Contract No. GS-06P-90-
                    GYD-0074
11/20/90   A00885   Preaward Audit of Reimbursable Cost: CRSS Commercial
                    Group, Inc., Contract No. GS-09P-87-KTC-0l29
11/21/90   A10089   Audit of Settlement Computation: Ralvin Pacific Proper-
                    ties, Inc., 2202 Camino Del Rio North, San Diego, Lease
                    No. GS-09B-75762
11/27/90   A00788   Preaward Audit of Supplemental Architect and Engineering
                    Services Contract: Einhorn Yaffee Prescott, Architecture
                    & Engineering, P.c., Solicitation No. GS-02P-90-
                    CUD0026(N)
11/28/90   A00854   Preaward Audit of Guard Service Contract: General Serv-
                    ices, Incorporated, Solicitation Number GS-04P-90-
                    CXC-OOll
11/29/90   A10023   Preaward Audit of Architect and Engineering Services Con-
                    tract: J. N. Pease Associates, Solicitation No. GS-04P-90-
                    EXC-0068
11/30/90   A00887   Preaward Audit of Architect and Engineering Services Con-
                    tract: Godsey Associates Architects, Solicitation No.
                    GS-04P-90-EXC-0050
11/30/90   A00888   Preaward Audit of Architect and Engineering Services Con-
                    tract: E. R. Ronald and Associates, Consultant to Godsey
                    Associates Architects, Solicitation No. GS-04P-90-
                    EXC-0050
12103/90   AlOO72   Pre award Audit of Construction Quality Management Con-
                    tract: GMP Associates, Inc., Solicitation No. GS-09P-90-
                    KTC-0091
12105/90   AlO065   Preaward Audit of Architect and Engineering Services Con-
                    tract: Pacific General, Inc., Solicitation No. GS-09P-90-
                    KTD-0045
12105/90   AlO096   Pre award Audit of Architect and Engineering Services Con-
                    tract: J.c. Chang & Associates, Inc., Solicitation No.
                    GS-09P-90-KTD-0045
12106/90   AlO035   Preaward Audit of Lease Escalation Proposal: Detroit Asso-
                    ciates Limited Partnership, Lease No. GS-05BR-9585
12112190   AlO062   Preaward Audit of Cost or Pricing Data: W.M.P. Security
                    Service Company, Solicitation No. GS-09P-90-KSC-0105
12113/90   AlO078   Pre award Audit of Construction Quality Management Serv-
                    ices Contract: Holmes and Narver, Inc., Project No.
                    ZCA90060, Solicitation No. GS-09P-90-KTC-0092
12114/90   A00851   Preaward Audit of Architect and Engineering Services Con-
                    tract: Maniktala Associates, P.C., Solicitation No.
                    GS-02P-90-CUC0041 (N)



24
                                                                                              Financial
                                                                                         Recommendations
                                                                                     Funds to      Questioned
Date of    Assignment                                                               Be Put To     (Unsupported)
Report     Number                               Title                               Better Use         Costs
12/14/90   AOOS60   Preaward Audit of Supplemental Architect and Engineering
                    Services Contract: Conklin Rossant Architects, P.C.
                    &    Berger  Associates,  Solicitation    No.   GS-02P-
                    90CUD0034 (NEG)
12/1S/90   A10090   Supplemental Audit of Claim for Increased Costs: Solie
                    Construction Company, Inc., Contract No. GS-lOP-02712
12118/90   A10ll0   Preaward Audit of Architect and Engineering Services Con-
                    tract: Consolidated Engineering Laboratories, Solicitation
                    No. GS-09P-90-KTC-0090
12118/90   A1l615   Preaward Audit of Architect and Engineering Services Con-
                    tract: NUS Corporation, Contract No. GSllP90EGC0l61
12120/90   A00906   Preaward Audit of Construction Quality Management Serv-
                    ices Contract: Brown and Caldwell Consultants, Project
                    No. ZCA90060, Solicitation No. GS-09P-90-KTC-0092
12120/90   A10102   Preaward Audit of Construction Quality Management Serv-
                    ices Contract: Brown and Caldwell Consultants, Project
                    No. ZCA900S0, Solicitation No. GS-09P-90-KTC-0090
12127/90   A00797   Audit of Termination Settlement Proposal: Metropolitan
                    Construction Corporation, Contract No. GS-02P-89-
                    CUC-OOOl
12127/90   A10094   Preaward Audit of Architect and Engineering Services Con-
                    tract: John S. Chase, F.A.I.A., Architect, Inc., Contract No.
                    GS-07P-90-JUC-0012
01/04/91   AOOS20   Preaward Audit of Lease Escalation Proposal: 1800 G Street,
                    NW, Lease No. GS-03B-06S21
01/04/91   A10075   Preaward Audit of Architect and Engineering Services Con-
                    tract: Leers, Weinzapfel Associates Architects, Inc., Solic-
                    itation No. GS-02P-90-CUC-0058(NEG)
01/04/91   A10076   Preaward Audit of Architect and Engineering Services Con-
                    tract: SAR Engineering, Inc., Subcontractor to Leers,
                    Weinzapfel Associates Architects, Inc., Solicitation No.
                    GS-02P-90-CUC-0058 (NEG)
01/09/91   A00909   Audit of Termination Proposal: Stott, Inc., Solicitation No.
                    GS-09P-8S-KTC-O 163
01110/91   AlO061   Preaward Audit of Small Business Administration S(a) Pric-
                    ing Proposal: Executive Security, Solicitation No.
                    GS-07P-90-HTC-O 1OS / 7PPB
01/10/91   A10109   Preaward Audit of Construction Quality Management Serv-
                    ices Contract: Wagner-Hohns-Inglis, Inc., Solicitation No.
                    GS-09P-90-KTC-0090
01110/91   A1l614   Preaward Audit of Architect and Engineering Services Con-
                    tract: Peck, Peck and Associates, Inc., Contract No.
                    GS11P90EGD0162
01/11/91   A10106   Preaward Audit of Construction Quality Management Serv-
                    ices Contract: Guttmann & MacRitchie, Solicitation No.
                    GS-09P-KTC-0090



                                                                                                             25
                                                                                              Financial
                                                                                         Recommendations
                                                                                     Funds to      Questioned
Date of    Assignment                                                               Be Put To     (Unsupported)
Report     Number                               Title                               Better Use         Costs
01/15/91   A10105    Preaward Audit of Construction Quality Management Serv-
                     ices Contract: Hall-Kimbrell Environmental Services, Inc.,
                     Project No. ZCA90050, Solicitation No. GS-09P-90-
                     KTC-0090
01/16/91   A10108    Preaward Audit of Construction Quality Management Serv-
                     ices Contract: CRSS Commercial Group, Inc., Solicitation
                     No. GS-07P-90-JXC-0082
01/23/91   A00859    Preaward Audit of Supplemental Architect and Engineering
                     Services Contract: Wank Adams Slavin Associates/Tams
                     Consultants, Inc., Joint Venture, Solicitation No.
                     GS-02P-90CUD0025 (N)
01124/91   A10224    Preaward Audit of Supplemental Architect and Engineering
                     Design Services Contract: Jansen & Rogan Consulting Engi-
                     neers P.C., Solicitation No. GS-01P-90-BZD-0024
01125/91   A10341    Preaward Audit of Supplemental Architect and Engineering
                     Services Contract: Sverdrup Corporation, Solicitation No.
                     GS-02P-90-CUD-0034(N)
01125/91   A10825    Preaward Audit of Architect and Engineering Services Con-
                     tract: Hanscomb Associates, Inc., Solicitation No.
                     GS09P90KTD0095
01/28/91   A00882    Preaward Audit of Construction Quality Management Serv-
                     ices Contract: Construction Management & Technical
                     Services, Inc., Solicitation No. GS-07P-90-JXC-0082
01128/91   AlO047    Audit of Termination Proposal: Border Steel Fabricators,
                     Contract No. GS-09P-88-KTC-0163
01131191   A00467    Audit of Claim for Increased Costs: Kora & Williams Cor-
                     poration, Contract No. GS-03B-78367
01131191   A 10001   Audit of Claim for Increased Costs: Keyes Condon Florance
                     Architects, Contract No. GS-llB-39009
01131191   A10004    Pre award Audit of Lease Alteration Proposal: Laszlo N. Tau-
                     ber, M.D. and Associates, Lease No. GS-llB-00082
01/31191   AlO095    Audit of Termination Proposal: Burdco Environmental,
                     Inc., Contract No. GS-07P-86-HUC-0156
01131191   A10344    Accounting System Survey: The Galbreath Company, So-
                     licitation No. GS-02B-22478
01131191   A11616    Preaward Audit of Cost or Pricing Data: Alkat Electrical
                     Contractors, Inc., Contract No. GS-03P-90-DWC-0098
01131191   A11620    Preaward Audit of Lease Alteration Proposal: Specified
                     Woodworking Corporation, A Subcontractor of Mark-
                     borough Properties, Inc., Lease No. GS-llB-00091
01131191   A11621    Preaward Audit of Lease Alteration Proposal: Spector,
                     Knapp & Baughman, Ltd., A Subcontractor of Markborough
                     Properties, Inc., Lease No. GS-llB-00091
01131191   A11622    Preaward Audit of Lease Alteration Proposal: Maloney Aire,
                     Inc., A Subcontractor of Markborough Properties, Inc.,
                     Lease No. GS-llB-00091


26
                                                                                            Financial
                                                                                       Recommendations
                                                                                   Funds to      Questioned
Date of    Assignment                                                             Be Put To     (Unsupported)
Report     Number                              Title                              Better Use         Costs
02/01/91   AI0046    Preaward Audit of Small Business Administration 8(a) Pric-
                     ing Proposal: Crown Construction Co., Inc., Contract No.
                     GD06P90GYCO 170(N)
02/04/91   A 10064   Preaward Audit of Change Order Proposal: Anderson Exca-
                     vating and Wrecking Company, Contract No. GS-
                     IIP89MKC0272
02/07/91   AI0048    Preaward Audit of Architect and Engineering Services Con-
                     tract: Wolfberg, Alvarez, and Associates, Solicitation No.
                     GS-02P90CUC0048
02/08/91   AI0I07    Pre award Audit of Construction Quality Management Serv-
                     ices Contract: The Baker Regan Group, Inc., Solicitation
                     No. GS-07P-JXC-0082        .
02/13/91   A00710    Audit of Claim for Increased Costs: Ranco Construction,
                     Inc., Contract No. GS-02P-88-CUC-00SO
02/13/91   AI0226    Preaward Audit of Construction Inspection Services Con-
                     tract: Neill & Gunter, Incorporated, Solicitation No.
                     GS-O 1P-90-BZD-OO 16
02/15/91   AI0661    Preaward Audit of Small Business Administration 8(a) Pric-
                     ing Proposal: Klean Rite Services, Inc., Solicitation No.
                     GS-04P-90-EWC-0088
02/19/91   A00730    Audit of Claims for Increased Costs: Gilroy-Sims and Asso-
                     ciates, Lease No. GS-06B-10967
02/19/91   A00908    Audit of Termination Proposal: Calex Engineering
                     Company, Contract No. GS-09P-88-KTC-0263
02/19/91   AlO1l2    Audit of Termination Proposal: Hydroquip Pump & De-
                     watering Corp., Contract No. GS-09P-88-KTC-0163
02/19/91   AI0l47    Audit of Termination Proposal: Power Breaking, Inc., Con-
                     tract No. GS-09P-88-KTC-0163
02/19/91   AI0225    Audit of Claim for Increased Costs: Peabody Construction
                     Co., Inc., Contract No. GS-02P-89-CUC-0044
02/20/91   A00904    Preaward Audit of Lease Alteration Proposal: Town Center
                     Management Corp., Lease No. GS-llB-30011
02/21/91   AI0124    Preaward Audit of Architect and Engineering Services Con-
                     tract: Leedshill-Herkenhoff, Inc., Contract No. GS-07P-90-
                     JUC-0014
02/21/91   A1l62S    Preaward Audit of Architect and Engineering Services Con-
                     tract: PKP Engineers, Inc., Contract No. GSllP90EGD0l62
02/25/91   AI0149    Audit of Claim for Increased Costs: Mauldin Dorfmeier
                     Construction, Inc., Contract No. GS-09P-89-KTC-0103
03/05/91   Al 1023   Preaward Audit of Change Order Proposal: BSI Construc-
                     tors, Inc., Contract No. GS06P89GYC0192
03/06/91   A10340    Preaward Audit of Lease Escalation Proposal: 1501 Broad-
                     way, New York, NY, Lease No. GS-02B-19203




                                                                                                          27
                                                                                            Financial
                                                                                       Recommendations
                                                                                   Funds to      Questioned
Date of    Assignment                                                             Be Put To     {Unsupported}
Report     Number                              Title                              Better Use         Costs

03/08/91   A10097    Audit of Termination Proposal: Murray Company, Contract
                     No. GS09P88KTC0163
03/08/91   A10315    Preaward Audit of Supplemental Architect and Engineering
                     Services Contract: The Nielson-Wurster Group, Inc., Solic-
                     itation No. GS-01P-90-BZD-00l7
03/12/91   A10342    Preaward Audit of Architect and Engineering Services Con-
                     tract: Fisher & Kuegler,        P.c.,  Solicitation No.
                     GS01POBZC0065
03/14/91   A11018    Preaward Audit of Architect and Engineering Services Con-
                     tract: Howard Needles Tammen & BergendoH, Project No.
                     ICA11390
03120/91   A1l636    Audit of Proposal for Initial Pricing of Amendment AS06
                     Under Contract No. GSllP89EGC0187: Gilbane Building
                     Company
03121191   A00899    Pre award Audit of Lease Alteration Proposal: Northwestern
                     Development Company, Lease No. GS-03B-6521
03121191   A1l317    Preaward Audit of Architect and Engineering Services Con-
                     tract: Page & Turnbull, Inc., Project No. ZCA90110, Solic-
                     itation No. GS-09P-90-KTC-0086
03/21191   A1l619    Audit of Claim for Increased Costs: W. M. Schlosser Com-
                     pany, Inc., Contract No. GS-llP89MKC0266
03/22/91   AlOO07    Preaward Audit of Lease Alteration Proposal: Markborough
                     Properties, Inc., Lease No. GS-llB-00091
03122191   AlO842    Preaward Audit of Architect and Engineering Services Con-
                     tract: Skidmore, Owings & Merrill, Solicitation No.
                     GS-09P-90-KTC-0086
03122191   All 624   Preaward Audit of Lease Alteration Proposal: Mona Electri-
                     cal Service, Inc., A Subcontractor to Northwestern Devel-
                     opment Company, Lease No. GS-03B-6521
03125/91   All 623   Preaward Audit of Lease Alteration Proposal: Best Mechani-
                     cal, Inc., A Subcontractor to Northwestern Development
                     Company, Lease No. GS-03B-6521
03/26/91   A1l318    Pre award Audit of Architect and Engineering Services Con-
                     tract (Direct Costs Portion Only): Skidmore, Owings &
                     Merrill, Solicitation No. GS-09P-90-KTC-0086
03/27/91   AlO843    Pre award Audit of Architect and Engineering Services Con-
                     tract: Hanscomb Associates, Inc., Consultants to Skid-
                     more, Owings & Merrill, Solicitation No. GS-09P-90-
                     KTC-0086
03/27/91   Al1629    Preaward Audit of Architect and Engineering Services Con-
                     tract: STY /H.D. Nottingham, Contract No. GSllP-
                     91EGCOlOS
03/29/91   A11628    Audit of Claim for Increased Costs: Beta Construction
                     Company, A Subcontractor to W. M. Schlosser Company,
                     Inc., Contract No. GS-I1P89MKC0266




28
                                                                                           Financial
                                                                                      Recommendations
                                                                                  Funds to      Questioned
Date of    Assignment                                                            Be Put To     (Unsupported)
Report     Number                              Title                             Better Use         Costs

FSS        Internal Audits
10/10/90   A00499   Review ofFSS Customer Backorders, Region 2
10/18/90   A00458   Review of the Maryland State Agency for Surplus Property
11/13/90   A00196   Review of Award and Administration of the Commer-
                    cialized Customer Supply Center Contract
12/10/90   A00743   Review of GSA's Household Goods Traffic Management
                    Program
01/03/91   A00837   Review of Travel Management Center Operations, Travel
                    and Transport, Inc., Contract No. GS-06F-13325
01/25/91   A00928   Review of the Virginia State Agency for Surplus Property
01/31/91   AI0069   Review of FSS Customer Supply Center, Fiscal Year 1991
                    Pricing
02/20/91   AOO778   Review of Wildfire Protection Support Program
02/20/91   A90526   Review of Controls Over Hazardous Material and Haz-
                    ardous Waste, Western Distribution Center, Stockton, Cali-
                    fornia, Region 9
02/25/91   A00399   Review of the Federal Supply Service, Personal Property
                    Donation Program at the Texas Surplus Property Agency


FSS        Contract Audits
10/03/90   A00696   Preaward Audit of Multiple Award Schedule Contract: West
                    Publishing Company, Solicitation No. 2FYS-BD-90-0003-M
10/04/90   A90851   Postaward Audit of Multiple Award Schedule Contract:                         $257,463
                    Structural Concepts Corporation, Contract No. GS-
                    OOF-76667 for the Period August 29, 1985 Through
                    September 30, 1988
10/05/90   A00669   Preaward Audit of Multiple Award Schedule Contract:
                    Konica Business Machines U.S.A., Inc., Solicitation No.
                    FCGE- E 1-89-000 IB-N-I-9-90
10/05/90   A00723   Preaward Audit of Multiple Award Schedule Contract:
                    Crenlo, Inc./Emcor Products, Solicitation No. 7FXI-
                    R5-89-S903-B
10/12/90   A00711   Preaward Audit of Multiple Award Schedule Contract:
                    Commercial Drapery Contractors, Inc., Solicitation No.
                    FCEN-IV-90 IFS-B-4-12-90
10/15/90   A00798   Pre award Audit of Multiple Award Schedule Contract: Zero
                    Enclosures, Division of Zero Corporation, Solicitation No.
                    7FXI-RS-89-5903-B
10/16/90   A00822   Pre award Audit of Cost or Pricing Data:            Wordex
                    Corporation, Solicitation No. 2FYS-89-AJ-OOOlB
10/17/90   A00867   Pre award Audit of Multiple Award Schedule Contract:
                    Knun USA, Inc., Solicitation No. 7FXI-R5-89-5903-B



                                                                                                            29
                                                                                         Financial
                                                                                    Recommendations
                                                                                Funds to      Questioned
Date of    Assignment                                                          Be Put To     (Unsupported)
Report     Number                             Title                            Better Use         Costs
10/17/90   AOOS92   Preaward Audit of Multiple Award Schedule Contract:
                    Desience Corporation, Solicitation No. 7FXI-RS-89-S903-B
1O/1S/90   A007S0   Preaward Audit of Cost or Pricing Data: Finishing
                    Enterprises, Inc., Solicitation No. FCGA-A3-QZ37S-N
10/19/90   A00673   Preaward Audit of Multiple Award Schedule Contract:
                    Canon U.S.A., Inc., Solicitation No. FCGE-BS-90001OB-
                    N-2-21-90
10/22/90   AOOS91   Preaward Audit of Cost or Pricing Data: Seaark Marine,
                    Inc., Solicitation No. 7FXI-LS-S9-1901-B
10/23/90   A00746   Preaward Audit of Cost or Pricing Data: ADM
                    International, Inc., Solicitation No. FCNH-S9-DSOS-N
10/23/90   AOOSS2   Preaward Audit of Cost or Pricing Data: Ortho
                    Pharmaceutical Corporation, Solicitation No. FCGA-A3-
                    QZ471-N-S-13-90
1O/2S/90   AOOS34   Preaward Audit of Cost or Pricing Data: Munson
                    Manufacturing, Inc., Solicitation No. 7FXI-LS-S9-1901-B
10/30/90   A00707   Pre award Audit of Multiple Award Schedule Contract:
                    Onan Corporation, Solicitation No. 7FXI-B7-S9-61OS-B
11/06/90   AOOS3S   Pre award Audit of Cost or Pricing Data: Boston Whaler,
                    Inc., Solicitation No. 7FXI-LS-S9-190l-B
1110S/90   AOOS76   Preaward Audit of Multiple Award Schedule Contract:
                    Simplicity Manufacturing, Inc., Solicitation No. 7FXI-
                    US-90-3704-B
11/0S/90   AOOSS6   Preaward Audit of Cost or Pricing Data: Willard Marine,
                    Incorporated, Solicitation No. 7FXI-LS-S9-1901-B
11/19/90   AOOS26   Preaward Audit of Multiple Award Schedule Contract: Roof
                    Equipment Manufacturing Company, Solicitation No.
                    7FXI-US-90-3704-B
11121190   A0064S   Preaward Audit of Multiple Award Schedule Contract:
                    Maxwell Macmillan Professional and Business Reference
                    Division, Solicitation No. 2FYS-BD-90-0003-M
11/21/90   AOOSOI   Preaward Audit of Multiple Award Schedule Contract: Kut-
                    Kwick Corporation, Solicitation No. 7FXI-US-90-3740-B
11/27/90   AOOSOS   Preaward Audit of Multiple Award Schedule Contract:
                    Eastman Kodak Company, Solicitation No. FCGE-
                    B3-9000l3B-N-7 -19-90
11/30/90   AOOS13   Preaward Audit of Cost or Pricing Data for Requirements
                    Contract: Curtiss-Wright Flight Systems/Shelby, Inc.,
                    Solicitation No. FCEP-BL-900 12S-N-S-1-90
11/30/90   A00893   Preaward Audit of Multiple Award Schedule Contract: New
                    Hermes, Inc., Solicitation No. 7FXI-SS-90-3201-B
11/30/90   A00901   Preaward Audit of Multiple Award Schedule Contract: Da-
                    Lite Screen Company, Inc., Solicitation No. FCGE-
                    B3-900013B-N




30
                                                                                             Financial
                                                                                        Recommendations
                                                                                    Funds to      Questioned
Date of    Assignment                                                              Be Put To     (Unsupported)
Report     Number                               Title                              Better Use         Costs
11/30/90   A1l831     Postaward Audit of Multiple Award Schedule Contract:                           $2,248
                      New Hermes, Inc., Contract No. GS-07F-17394
12111190   A00760     Preaward Audit of Multiple Award Schedule Contract:
                      Science Research Associates, Inc., Solicitation No. 2FYG-
                      JI-90-0006-M
12111190   AI0056     Limited Scope Audit of Government Billings Under                               $2,584
                      Contract No. GS-02F-52103: Science Research Associates,
                      Inc.
12111190   AI0654     Limited Audit of Requirements Contract: Curtiss-Wright 1                       $3,132
                      Marquette, Inc., Contract No. GS-00F05220
12113/90   A00873     Preaward Audit of Multiple Award Schedule Contract:
                      Sunshine Chemical Specialties, Inc., Solicitation No.
                      TFTC-89-MR-686BB
12113/90   AI0008     Preaward Audit of Multiple Award Schedule Contract:
                      Wright Line Inc., Solicitation No. FCNS-90-G701-
                      N-7-26-90
12114/90   A00802     Pre award Audit of Multiple Award Schedule Contract:
                      Alban Engine Power Systems, Solicitation No. 7FXI-
                      B7-89-6108-B
12/14/90   A00875     Postaward Audit of Multiple Award Schedule Contract:                         $682,675
                      Lehigh Safety Shoe Company, Contract No. GS-07F-14527
12/19/90   A10079     Preaward Audit of Multiple Award Schedule Contract:
                      Andesite of California, Inc., Solicitation No. TFTC-90-
                      LF-7905B
12/20/90   A 1001 9   Preaward Audit of Multiple Award Schedule Contract: Data
                      Mate Inc., Solicitation No. FCNS-90-G70l-N-7-26-90
12/26/90   A10067     Preaward Audit of Multiple Award Schedule Contract:
                      Kelvinator Scientific, Solicitation No. FCGS-Xl-90-0022-B
12126/90   A10068     Preaward Audit of Multiple Award Schedule Contract:
                      Forma Scientific, Inc., Solicitation No. FCGS-Xl-90-0022-B
12127190   AlOO36     Preaward Audit of Multiple Award Schedule Contract:
                      Cushman, Inc., Solicitation No. 7FXI-U5-90-3704-B
12/31190   A00930     Pre award Audit of Multiple Award Schedule Contract:
                      Elmo Manufacturing Corporation, Solicitation No. FCGE-
                      B3-900013B-N
12/31190   AI0055     Preaward Audit of Multiple Award Schedule Contract: Lab-
                      Line Instruments, Inc., Solicitation No. FCGS-Y8-90-0021-
                      B-N-8-22-90
01/08/91   A10033     Preaward Audit of Multiple Award Schedule Contract:
                      Gardenway Bolens/Troy Bilt, Inc., Solicitation No. 7FXI-
                      U5-90-3704-B
01/08/91   AlOO87     Pre award Audit of Multiple Award Schedule Contract:
                      Ecolab Inc., Solicitation No. TFTC-90-LT-792AB




                                                                                                              31
                                                                                           Financial
                                                                                      Recommendations
                                                                                  Funds to      Questioned
Date of     Assignment                                                           Be Put To     (Unsupported)
Report      Number                             Title                             Better Use         Costs
 01/08/91   A10088   Preaward Audit of Multiple Award Schedule Contract:
                     Edstrom Industries, Inc., Solicitation No. FCGS-
                     Xl-90-0022-B-N-10-4-90
 01/11/91   A00013   Postaward Audit of Multiple Award Schedule Contract:                        $520,397
                     Vestal Laboratories, Inc., Contract No. GS-07F-13731 for
                     the Period April 1, 1986 Through January 31, 1989
 01/11/91   A00161   Postaward Audit of Multiple Award Schedule Contract:                        $172,692
                     Vestal Laboratories, Inc., Contract No. GS-07F-13138 for
                     the Period May 13, 1985 Through February 28, 1987
 01/11/91   A00419   Postaward Audit of Multiple Award Schedule Contract:                         $50,111
                     Vestal Laboratories, Inc., Contract No. GS-00F-79383 for
                     the Period May 9, 1985 Through August 8, 1987
 01/15/91   A10009   Preaward Audit of Cost or Pricing Data: Wright Line Inc.,
                     Solicitation No. FCNS-90-G701-N-7-26-90
 01/15/91   A10116   Preaward Audit of Multiple Award Schedule Contract:
                     Farwest Paint Manufacturing Co., Solicitation No.
                     TFTC-90-MT-806AB
 01/17/91   AI0006   Preaward Audit of Multiple Award Schedule Contract:
                     Jacobsen, Division of Textron, Solicitation No. 7FXI-
                     US-90-3704-B
 01117/91   AlO027   Preaward Audit of Cost or Pricing Data: Commercial
                     Drapery Contractors, Inc., Solicitation No. FCNH-89-
                     DS08-N
 01118/91   A10814   Limited Scope Postaward Audit of Government Billings                          $5,461
                     Under Contract No. GS-07F-177 41: Jacobsen, Division of
                     Textron
 01125/91   A00912   Preaward Audit of Multiple Award Schedule Contract:
                     Delta International Machinery Corporation, Solicitation
                     No.7FXI-S5-90-3201-B
 01/25/91   A1l832   Postaward Audit of Multiple Award Schedule Contract:                         $15,298
                     Delta International Machinery Corporation, Contract No.
                     GS-07F-17477
 01131191   A10321   Preaward Audit of Multiple Award Schedule Contract:
                     Savant Instruments, Inc., Solicitation No. FCGS-X1-
                     90-0022-B-N
 02/04/91   A00811   Preaward Audit of Cost or Pricing Data: American of
                     Martinsville, Solicitation No. FCNH-89-A706-N-2-13-90
 02/04/91   A1l83S   Report on Application of Agreed Upon Procedures for Audit
                     of Pricing Proposal Under Solicitation No. FCNS-90-G701-
                     N: Jasper Desk Company
 02/07/91   AlO063   Pre award Audit of Multiple Award Schedule Contract:
                     Upright, Inc., Solicitation No. TFTC-90-LF-7905B
02/08/91    A00400   Limited Scope Audit of Government Billings Under                             $38,367
                     Contract Nos. GS-OOF-94557 & GS-OOF-94S83: ADM
                     International, Inc.




32
                                                                                              Financial
                                                                                         Recommendations
                                                                                     Funds to      Questioned
Date of    Assignment                                                               Be Put To     (Unsupported)
Report     Number                               Title                               Better Use         Costs
02/08/91   A00747    Preaward Audit of Cost or Pricing Data: KLN Steel Products
                     Company, Solicitation No. FCNH-89-A706-N-2-13-90
02/08/91   A10031    Preaward Audit of Multiple Award Schedule Contract:
                     Precision Manufacturing Inc., Solicitation No. FCNS-90-
                     G701-N-7-26-90
02/08/91   A10826    Limited Scope Audit of Government Billings Under                                 $8,148
                     Contract No. GS-00F-02388: Precision Manufacturing Inc.
02112191   A10104    Audit of Termination Proposal: American Kal Enterprises,
                     Inc., Contract No. GS-00F-00809
02114/91   A10639    Preaward Audit of Cost or Pricing Data: Artistic Innovators,
                     Inc., Solicitation No. 2FYS-AJ-89-000I-B
02/15/91   A00902    Preaward Audit of Multiple Award Schedule Contract:
                     Gravely International, Inc., Solicitation No. GS-07FXI-
                     U5-90-3704B
02/15/91   A10I11    Preaward Audit of Pricing Proposal: Cubic Defense
                     Systems, Inc., Solicitation No. 2FYG-JI-90-0006-M
02/15/91   A10217    Preaward Audit of Multiple Award Schedule Contract:
                     Millipore Corporation, Solicitation No. FCGS-Xl-90-
                     0022-B
02/15/91   A10343    Preaward Audit of Multiple Award Schedule Contract: Lab
                     Products, Inc., Solicitation No. FCGS-Xl-90-0022-
                     B-N-1O-4-90
02115/91   A10664    Limited Scope Audit of Government Billings Under                                 $2,611
                     Contract No. GS-07F-17984: Gravely International, Inc.
02119/91   A10034    Preaward Audit of Cost or Pricing Data: Vikonics, Inc.,
                     Solicitation No. 7FXI-C7-89-6302-B
02/20/91   A10817    Preaward Audit of Multiple Award Schedule Contract:
                     Dubois Chemicals, Inc., Solicitation No. TFTC-90-
                     LT-792AB
02/22/91   A10133    Audit of Termination Proposal: Sigma West Corporation,
                     Contract No. GS-00F-00977
02/26/91   A10313    Preaward Audit of Multiple Award Schedule Contract:
                     Centercore, Inc., Solicitation No. FCNS-90-G70l-
                     N-7-26-90
02127/91   A10060    Preaward Audit of Multiple Award Schedule Contract:
                     Smith System Mfg. Co., Solicitation No. FCNS-90-G701-
                     N-7-26-90
02/27/91   A10128    Preaward Audit of Multiple Award Schedule Contract: Best
                     Power Technology Sales Corporation, Solicitation No.
                     7FXI-S6-88-6109-B
02127/91   A10834    Limited Scope Audit of Government Billings Under                                 $2,928
                     Contract No. GS-OOF-02476: Smith System Mfg. Co.
02/27/91   Al 1020   Preaward Audit of Cost or Pricing Data: Sigma West
                     Corporation, Solicitation No. 6FEC-F3-909786-S




                                                                                                               33
                                                                                           Financial
                                                                                      Recommendations
                                                                                  Funds to      Questioned
D!lte of   Assignment                                                            Be Put To     (Unsupported)
Report     Number                             Title                              Better Use         Costs
02128/91   A10350   Limited Scope Audit of Government Billings Under                               $7,632
                    Contract No. GS-00F-02578: Centercore, Inc.
02/28/91   A10351   Preaward Audit of Cost or Pricing Data: Locus, Inc.,
                    Solicitation No. 2FYG-JI-90-0006-M
02128/91   A10523   Preaward Audit of Multiple Award Schedule Contract: Solo
                    Incorporated, Solicitation No. 7FXI-U5-90-3704-B
03/01191   A10l29   Preaward Audit of Multiple Award Schedule Contract: E-Z-
                    Go Textron, Inc., Solicitation No. 7FXI-US-90-3704-B
03/04/91   AOO929   Preaward Audit of Cost or Pricing Data: Crown Furniture
                    Manufacturing Incorporated, Solicitation No. FCNS-90-
                    G701-N-7-26-90
03/15/91   A10833   Pre award Audit of Multiple Award Schedule Contract:
                    Spacesaver Corporation, Solicitation No. FCNO-90-M102-
                    B-1l-20-90
03/20/91   A00838   Pre award Audit of Multiple Award Schedule Contract: Hill
                    Manufacturing Company, Inc., Solicitation No. TFTC-89-
                    MR-686BB
03/22/91   A10524   Preaward Audit of Multiple Award Schedule Contract:
                    HotPack Corporation, Solicitation No. FCGS-X1-90-0022-B
03/22/91   A10820   Preaward Audit of Multiple Award Schedule Contract: The
                    Glidden Company, Solicitation No. TFTC-90-MT-806AB
03/25/91   A10831   Limited Scope Audit of Government Billings Under                               $3,114
                    Contract No. GS-1O-F-51194: The Glidden Company
03127/91   A11823   Preaward Audit of Multiple Award Schedule Contract:
                    Jewett Refrigerator Co., Inc., Solicitation No. FCGS-
                    X1-90-0022-B-9-U -90
03128/91   AOOUO    Preaward Audit of Multiple Award Schedule Contract: ADT
                    Security Systems, Inc., Solicitation No. 7FXI-C7-89-6302-B
03/28/91   A00766   Limited Audit of Government Billings Under Contract No.                        $9,792
                    GS-07F-17223: Casi-Rusco, Inc.
03/28/91   A10515   Preaward Audit of Multiple Award Schedule Contract: New
                    Pig Corporation, Solicitation No. TFTC-90-LF-7905B
03/28/91   A10819   Prcaward Audit of Multiple Award Schedule Contract: The
                    Sherwin-Williarns Company, Solicitation No. TFTC-90-
                    MT-806AB
03/29/91   AlO074   Preaward Audit of Multiple Award Schedule Contract:
                    Western Media Products, Solicitation No. FCNS-90-G701-
                    N-7-26-90
03/29/91   A10660   Preaward Audit of Cost or Pricing Data for Requirements
                    Contract: Curtiss-Wright Flight Systems/Shelby, Inc.,
                    Solicitation No. FCEP-BL-X00997-N-9-U-90
03/29/91   A10662   Preaward Audit of Multiple Award Schedule Contract:
                    Allied Lawn Mower Company, Inc., Solicitation No. 7FXI-
                    U5-90-3704-B




34
                                                                                           Financial
                                                                                      Recommendations
                                                                                  Funds to      Questioned
Date of    Assignment                                                            Be Put To     (Unsupported)
Report     Number                              Title                             Better Use         Costs

IRMS Internal Audits
10/24/90   A90489   Review of Information Resources Management Service,
                    Contract Services Program, Pacific Zone
11116/90   A90480   Review of Quality Assurance in the Development of GSA's
                    Major Automated Information Systems
01116/91   A00448   Audit of Contracting Methods, GSA Office of Technical
                    Assistance
02/21/91   A10083   Review of User Information for the Purchase of Telephones
                    and Services Contracts, Information Resources Man-
                    agement Service, Pacific Zone
02/22/91   A00567   Review of Security/Privacy of Information Systems as
                    Required by the Computer Security Act of 1987
02/22/91   A10082   Review of Inspection Services for the GSA Purchase of
                    Telephones and Services Contracts, Information Resources
                    Management Service, Pacific Zone
03/01/91   A00348   Review of Contingency Planning for GSA's Essential
                    Computer Systems
03111/91   A11015   Review of Network Control Facility Operations
03/29/91   A00566   Review of GSA Delegations of Procurement Authority for
                    Automated Data Processing Resources



IRMS Contract Audits
10/02190   A00764   Preaward Audit of Multiple Award Schedule Contract:
                    Hewlett-Packard Company, Contract No. GS-00KAGS5765
10/03/90   A00697   Preaward Audit of Multiple Award Schedule Contract:
                    Network Systems Corporation, Solicitation No. GSC-
                    KESO-C-00043-N-4-10-90
10111/90   A90741   Postaward Audit of Multiple Award Schedule Contract:                         $15,016
                    Genicom Corporation, Contract No. GSOOK86AGS5225 for
                    the Period April 1, 1986 Through August 31, 1987
10/17/90   AOO712   Preaward Audit of Multiple Award Schedule Contract:
                    Amdahl Corporation, Solicitation No. GSC-KESO-C-
                    00043-N-4-10-90
10117/90   AOO836   Preaward Audit of Cost or Pricing Data: GEL Systems, Inc.,
                    Solicitation No. GSC-KESV-00056-N-11-21-89
10/19/90   A00744   Prcaward Audit of Multiple Award Schedule Contract:
                    Oracle Corporation, Solicitation No. GSC-KESO-C-00043-
                    N-4-10-90
10/26/90   A00791   Pre award Audit of Change Order Proposal: U.S. Sprint
                    Communications Company, Contract No. GSOOK89-
                    AHD0009


                                                                                                           35
                                                                                            Financial
                                                                                       Recommendations
                                                                                   Funds to      Questioned
Date of    Assignment                                                             Be Put To     (Unsupported}
Report     Number                              Title                              Better Use         Costs
10/31/90   A00615   Preaward Audit of Multiple Award Schedule Contract:
                    Microlog Corporation of Maryland, Solicitation No. GSC-
                    KESV-00058-N-4-25-90
11/08/90   A00676   Preaward Audit of Multiple Award Schedule Contract:
                    Memorex Telex Corporation, Storage Systems Group,
                    Solicitation No. GSC-KESO-C-00043-N-4-10-90
11/15/90   A10050   Postaward Audit of Multiple Award Schedule Contract:                           $60,025
                    Symbolics, Inc., Contract No. GSOOK-86AGS5631-0ption
                    Year 2 for the Period October I, 1987 Through September 30,
                    1988
11121190   A00757   Preaward Audit of Multiple Award Schedule Contract:
                    Midland International Corporation, Solicitation No. GSC-
                    KESR-00059-N-4-23-90
11/30/90   A00884   Pre award Audit of Cost or Pricing Data: Time and Space
                    Processing, Inc., Solicitation No. GSC-KESV-00058-
                    N-4-25-90
12/07/90   A10002   Preaward Audit of Cost or Pricing Data: Computer-Link
                    Corporation, Solicitation No. GSC-KES-F-B-C-00042-
                    N-1l-16-89
01/11/91   A10114   Preaward Audit of Multiple Award Schedule Contract:
                    Thomas Engineering Company, Solicitation No. GSC-
                    KESF-B-C-00044-N-1O-23-90
01114/91   A10057   Preaward Audit of Change Order Proposal: U.S. Sprint
                    Communications Company, Contract No. GSOOK-
                    89AHD0009
02111191   A10143   Preaward Audit of Multiple Award Schedule Contract:
                    Attachmate Corporation, Solicitation No. GSC-KESF-
                    B-C-00044-N -10- 23-90
02/15/91   A00794   Preaward Audit of Multiple Award Schedule Contract:
                    Unisys Corporation, Solicitation No. GSC-KESO-C-00043-
                    N-4-1O-90
02115/91   AlO119   Preaward Audit of Multiple Award Schedule Contract:
                    3COM Corporation,     Solicitation No.   GSC-KESF-
                    B-C-00044-N-1O-23-90
02115191   A10130   Preaward Audit of Multiple Award Schedule Contract:
                    Hughes Lan Systems, Solicitation No. GSC-KESF-
                    B-C-00044-N-1O-23-90
02/20/91   AlOl21   Preaward Audit of Multiple Award Schedule Contract:
                    General Parametrics Corporation, Solicitation No. GSC-
                    KESF-B-C-00044-N -10-23-90
02/22/91   A10135   Preaward Audit of Multiple Award Schedule Contract:
                    Folsom Research, Inc., Solicitation No. GSC-KESF-
                    B-C-00044-N -10- 23-90
02/22/91   Al1017   Preaward Audit of Multiple Award Schedule Contract: Data
                    Security, Inc., Solicitation No. GSC-KESF-B-C-00044-
                    N-10-23-90



36
                                                                                            Financial
                                                                                       Recommendations
                                                                                   Funds to      Questioned
Date of    Assignment                                                             Be Put To     (Unsupported)
Report     Number                              Title                              Better Use         Costs
03114/91   A1l313    Preaward Audit of Multiple Award Schedule Contract:
                     Talaris Systems, Inc., Solicitation No. GSC-KESF-
                     B-C-00044-N-10-23-90
03/15/91   AI0l45    Audit of Overbillings of Multiple Award Schedule Contract:
                     Compaq Computer Corporation, Contract No. GSOOK-
                     87 AGS6036
03120/91   All120    Preaward Audit of Cost or Pricing Data: D.P. Associates,
                     Inc., Solicitation No. 7KCP-90-0009
03/21/91   A00732    Preaward Audit of Multiple Award Schedule Contract:
                     Intergraph Corporation, Solicitation No. GSC-KESO-
                     C-00043-N -4-10-90
03126/91   Al0n3     Preaward Audit of Multiple Award Schedule Contract:
                     Xyplex, Inc., Solicitation No. GSC-KESF-B-C-00044-
                     N-1O-23-90
03126/91   A 10234   Limited Scope Postaward Audit of Government Billings
                     Under Contract No. GS-00K89AGS6446-PSOl: Xyplex, Inc.
03127/91   AI0l20    Preaward Audit of Multiple Award Schedule Contract: Loral
                     Instrumentation, Solicitation No. GSC-KESF-B-C-00044-
                     N-10-23-90
03/27/91   A10222    Preaward Audit of Multiple Award Schedule Contract:
                     Cabletron Systems, Inc., Solicitation No. GSC-KESF-
                     B-C-00044-N-1O-23-90
03128/91   AI0532    Pre award Audit of Multiple Award Schedule Contract: Feith
                     Systems and Software, Incorporated, Solicitation No. GSC-
                     KESF-B-C-00044-N-I0-23-90
03129/91   A00827    Audit of Claim for Increased Costs: U.S. West Information
                     Systems, Inc.,     Contract Nos.      GSOOK86AHD0007,
                     GS04F02023,     GSOOK86AHD0005, GSOOK86AHC0004,
                     GSOOK86AHD0013, GS09F60008, GSOOK86AHD0006
03/29/91   AlOl18    Preaward Audit of Multiple Award Schedule Contract:
                     Texas Instruments, Inc., Solicitation No. GSC-KESF-
                     B-C-00044-N-1O-23-90
03/29/91   AI0131    Preaward Audit of Multiple Award Schedule Contract: Dell
                     Marketing Corporation, Solicitation No. GSC-KESF-
                     B-C-00044-N-1O-23-90
03/29/91   A10142    Pre award Audit of Cost or Pricing Data: Centel
                     Communications Systems, Solicitation No. 7KCP-90-0011
03129/91   A10233    Limited Scope Postaward Audit of Government Billings
                     Under Contract No. GSOOK90AGS51S0: Cabletron
                     Systems, Inc.
03/29/91   A10348    Pre award Audit of Cost or Pricing Data: Janus Systems,
                     Inc., Solicitation No. GSC-KESO-C-00043-N-4-10-90
03129/91   A1l821    Preaward Audit of Multiple Award Schedule Contract: NEC
                     Technologies, Inc., Solicitation No. GSC-KESF-B-C-00044-
                     N-10-23-90




                                                                                                           37
                                                                                             Financial
                                                                                        Recommendations
                                                                                    Funds to      Questioned
Date of    Assignment                                                              Be Put To     (Unsupported)
Report     Number                              Title                               Better Use         Costs
03/29/91   Al1837   Limited Scope Postaward Audit of NEC Technologies, Inc.,                         $5,235
                    Contract No. GSOOK89AGS6368
03/29/91   A1l932   Pre award Audit of Cost or Pricing Data: Zenithiinteq, Inc.,
                    Solicitation No. GSC-KESF-B-C-00044-N-10-23-90
03/29/91   Al1941   Preaward Audit of Multiple Award Schedule Contract:
                    Newbridge Networks Inc., Solicitation No. GSC-KESF-
                    B-C-00044-N -10- 23-90
03/29/91   A11942   Limited Scope Postaward Audit of Government Billings                            $18,438
                    Under Contract No. GSOOK88AGS5076PS-02: Newbridge
                    Networks Inc.



Other Internal Audits
10/04/90   A00792   Review of Imprest Fund, East Philadelphia Field Office,
                    Region 3
10111190   A00583   Review of Imprest Fund, Public Buildings Service Field
                    Office, Spokane, Washington, Region 9
10111190   A00661   Review of Imprest Fund, Fleet Management Center,
                    Spokane, Washington, Region 9
10/25/90   A00633   Review of Operations of GSA's Printing Plant 50, St. Louis,
                    Missouri
10/31190   AOO147   Review of Time and Attendance Practices, National Capital
                    Region
11/02/90   A00828   Limited Review of the Deputy Regional Administrator's
                    Fiscal Year 1990 Section 2 Assurance Statement, National
                    Capital Region
11102/90   A10003   Limited Review of Regional Administrator's Basis for Fiscal
                    Year 1990 Federal Managers' Financial Integrity Act
                    (FMFIA) Assurance Statement, Region 9
11/02/90   AlO0l7   Limited Review of Regional Administrator's Fiscal Year
                    1990 Section 2 Assurance Statement, Region 2
11/02/90   A00537   Limited Review of the Information Resources Management
                    Service's Fiscal Year 1990 Section 2 Assurance Statement
11/05/90   A10013   Limited Review of Regional Administrator's Fiscal Year
                    1990 Section 2 Assurance Statement, Region 6
11/07/90   A11913   Limited Review of the Information Resources Management
                    Service's Fiscal Year 1990 Assurance Statement, National
                    Capital Region
11115/90   AlO0l4   Limited Review of the Public Buildings Service's Fiscal
                    Year 1990 Section 2 Assurance Statement
11115/90   A10015   Limited Review of the Federal Property Resources Service's
                    Fiscal Year 1990 Section 2 Assurance Statement




38
                                                                                            Financial
                                                                                       Recommendations
                                                                                   Funds to      Questioned
Date of    Assignment                                                             Be Put To     (Unsupported)
Report     Number                              Title                              Better Use         Costs
11/15/90   AI0016   Limited Review of the Assistant Regional Administrator,
                    Public Buildings Service, Fiscal Year 1990 Section 2
                    Assurance Statement, National Capital Region
11115/90   AI0043   Limited Review of Regional Administrator's Fiscal Year
                    1990 Section 2 Assurance Statement, Region 7
11115/90   A1l513   Limited Review of the Office of the Comptroller Fiscal Year
                    1990 Section 2 Assurance Statement
11121/90   A00549   Limited Review of Federal Supply Service's Fiscal Year 1990
                    Section 2 Assurance Statement
11128/90   AOO047   Review of Regional Printing and Distribution Operations,
                    Region 2
11129/90   A10513   Review of Imprest Fund, Chesapeake Fleet Management
                    Sub-center, Region 3
11/30/90   A00694   Review of Controls Over Billings for FSS Vehicle Purchases
11130/90   A00878   Review of Imprest Fund, Beaumont Buildings Management
                    Field Office, Region 7
12/03/90   A1l514   Limited Review of Office of Administration Fiscal Year
                    1990 Section 2 Assurance Statement
12117/90   A00829   Limited Review of the Office of the Comptroller Fiscal Year
                    1990 Section 4 Assurance Statement
12120/90   A00576   Review of GSA Printing and Duplicating Activities
12120/90   A00742   Review of Imprest Fund, Central Field Office, Region 5
12121/90   AI0099   Review of Imprest Fund, Houston Buildings Management
                    Office
01/09/91   AI0l25   Review of Imprest Fund, Boise Field Office, Region 9
01124/91   AI0012   Review of Assets Management Branch Operations, Region 6
01/31/91   A00590   Review of Imprest Fund, GSA Central Office                                      $5,000
01/31/91   A11515   Limited   Evaluation    of   the     General    Services
                    Administration's Compliance with the Anti-Lobbying Act
02/01/91   A11516   Review of Controls Over Advisory and Assistance Service
                    Contracts for Fiscal Year 1990
02/04/91   A11021   Review of Imprest Fund, Federal Records Center Field
                    Office, 9700 Page Boulevard, Overland, MS
02/07/91   AI0823   Review of Imprest Fund, Battle Creek Field Office
02/11/91   A10l26   Review of Imprest Fund, Boise Fleet Management Center,
                    Region 9
02/11/91   AI0827   Review of Imprest Fund, Columbus Field Office
02/19/91   AI0051   Review of Imprest Fund, Public Buildings Service Field
                    Office, Omaha, Nebraska
02119/91   AlO052   Review of Time and Attendance Practices, Public Buildings
                    Service Field Office, Omaha, Nebraska




                                                                                                             39
                                                                                           Financial
                                                                                      Recommendations
                                                                                  Funds to      Questioned
Date of    Assignment                                                            Be Put To     (Unsupported)
Report     Number                            Title                               Better Use         Costs
02/19/91   A11019   Review of Imprest Fund, Fleet Management Center,
                    Omaha, Nebraska
03/20/91   AOOS23   Review of PBS On-line Payment and Collections (OPAC)
                    Chargebacks
03/27/91   A10S15   Review of Imprest Fund, Twin Cities Fleet Management
                    Center, Region 5
03/29/91   AI0667   Audit of Columbia,      South    Carolina   Imprest   Fund
                    Operations, Region 4
03/29/91   A1066S   Audit of Birmingham, Alabama Imprest Fund Operations,
                    Region 4


Non-
GSA        Internal Audits
12/20/90   A00653   Review of the Administrative Procedures of             the
                    International Cultural and Trade Center Commission
02/0S/91   A10021   Review of the Commission on the Bicentennial of the
                    United States Constitution
03/29/91   A11S33   Review of the Administration and Procurement Procedures
                    of the Commission on Agricultural Workers




40
                           APPENDIX ill-DELINQUENT DEBTS
II                                                                                                                                              II
GSA's Office of Comptroller provided the following                                        •     Stressed adherence to the requirements of
informa tion.                                                                                   the Federal Claims Collections Standards,
                                                                                                with particular emphasis placed on: the es-
                                                                                                calation of delinquent accounts to higher
                                                                                                levels, the issuance of timely demand let-
                                                                                                ters, the use of financial status reports for
GSA EFFORTS TO IMPROVE DEBT                                                                     consideration in the approval of installment
COLLECTION                                                                                      payment plans, and the use of consumer re-
                                                                                                porting agencies for reporting delinquent
During the period October I, 1990 through March 31,
                                                                                                consumer debt.
1991, GSA efforts to improve debt collection and re-
duce the amount of debt written off as uncollectible                                      •     Emphasized improved collection techniques
focused on upgrading collections functions and en-                                              in continuing in-house training sessions.
hancing debt management. These activities included
                                                                                          •     Reviewed accounts receivable operations in
the following:
                                                                                                one region to ensure compliance with the
     •   Implemented a monthly sampling process                                                 Debt Collection Act of 1982. This review
         for non-Federal claims to better monitor the                                           included examinations of account servicing
         timeliness of followup.                                                                procedures for non-Federal activity.


NON-FEDERAL ACCOUNTS RECEIVABLE



                                                                                             As of                As of
                                                                                         Octoberl, 1990       March 31, 1991    Difference

         Total Amounts Due GSA ................................................ .             $57,015,367      $58,552,357      $1,536,990
         Amount Delinquent ......................................................... .        $32,457,746      $34,557,299      $2,099,553
         Total Amount Written Off as Uncollectible
           Between 10/1/90 and 3/31191 ................................ ..                    $1,823,770


Of the total amounts due GSA and the amounts delin-                                      $19 million and $18.8 million, respectively, are being
quent as of October I, 1990 and March 31, 1991,                                          disputed.




                                                                                                                                                41
NOTES
NOTES
NOTES
